<html>
<title> - H.R. 2210, THE "SCHOOL READINESS ACT OF 2003" HEARING BEFORE THE SUBCOMMITTEE ON EDUCATION REFORM OF THE COMMITTEE ON EDUCATION AND THE WORKFORCE HOUSE OF REPRESENTATIVES ONE HUNDRED EIGHTH CONGRESS FIRST SESSION HEARING HELD IN WASHINGTON, DC, JUNE 3, 2003 Serial No. 108-17 Printed for the use of the Committee on Education and the Workforce 88-477 U.S. GOVERNMENT PRINTING OFFICE WASHINGTON : 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                H.R. 2210, THE "SCHOOL READINESS ACT OF 2003"




                                   HEARING

                                 BEFORE THE

                    SUBCOMMITTEE ON EDUCATION REFORM

                                   OF THE

                       COMMITTEE ON EDUCATION AND
                               THE WORKFORCE

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS

                               FIRST SESSION
		
             HEARING HELD IN WASHINGTON, DC, JUNE 3, 2003

                             Serial No. 108-17

           Printed for the use of the Committee on Education
           and the Workforce




88-477              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800 FAX: (202) 512-2250  Mail: Stop SSOP, Washington, DC 20402-0001


               COMMITTEE ON EDUCATION AND THE WORKFORCE
                   JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin		GEORGE MILLER, California
CASS BALLENGER, North Carolina		DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan		MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California	DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware		ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas			LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania	RUBE?N HINOJOSA, Texas
CHARLIE NORWOOD, Georgia		CAROLYN McCARTHY, New York
FRED UPTON, Michigan			JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan		RON KIND, Wisconsin
JIM DeMINT, South Carolina		DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia		        DAVID WU, Oregon
JUDY BIGGERT, Illinois			RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania	SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio			BETTY McCOLLUM, Minnesota
RIC KELLER, Florida			DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska			ED CASE, Hawaii
JOE WILSON, South Carolina		RAU?L M. GRIJALVA, Arizona
TOM COLE, Oklahoma			DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada			CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota			TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas			TIMOTHY H. BISHOP, New York
MARILYN N. MUSGRAVE, Colorado
MARSHA BLACKBURN, Tennessee
PHIL GINGREY, Georgia
MAX BURNS, Georgia

                     Paula Nowakowski, Chief of Staff
                 John Lawrence, Minority Staff Director



                    SUBCOMMITTEE ON EDUCATION REFORM
                 MICHAEL N. CASTLE, Delaware, Chairman

TOM OSBORNE, Nebraska, Vice Chairman	LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania	SUSAN A. DAVIS, California
FRED UPTON, Michigan			DANNY K. DAVIS, Illinois
VERNON J. EHLERS, Michigan		ED CASE, Hawaii
JIM DeMINT, South Carolina		RAU?L GRIJALVA, Arizona
JUDY BIGGERT, Illinois			RON KIND, Wisconsin
TODD RUSSELL PLATTS, Pennsylvania	DENNIS J. KUCINICH, Ohio
RIC KELLER, Florida			CHRIS VAN HOLLEN, Maryland
JOE WILSON, South Carolina		DENISE L. MAJETTE, Georgia
MARILYN N. MUSGRAVE, Colorado									


                           TABLE OF CONTENTS


TABLE OF CONTENTS ....................................................... i

OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, SUBCOMMITTEE ON 
EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES. ............................................... 2

OPENING STATEMENT OF RANKING MINORITY MEMBER LYNN WOOLSEY, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES. ............................... 4

STATEMENT OF MS. AMY WILKINS, EXECUTIVE DIRECTOR, TRUST FOR EARLY 
EDUCATION................................................................	7

STATEMENT OF DR. ROBERT LAWRENCE, ASSISTANT DIRECTOR OF 
COLLABORATIVE SERVICES, DIRECTOR OF HEAD START STATE COLLABORATION 
PROJECT, GEORGIA OFFICE OF SCHOOL READINESS ............................. 9

STATEMENT OF HELGA LEMKE, EXECUTIVE DIRECTOR, COMMUNITY ACTION 
PARTNERSHIP OF SONOMA COUNTY, CALIFORNIA ................................12

APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN MICHAEL N. 
CASTLE, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION 
AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES ........................41

APPENDIX B - DOCUMENT SUBMITTED FOR THE RECORD BY RANKING MINORITY 
MEMBER LYNN WOOLSEY: WRITTEN ARTICLE QUOTING DR. EDWARD ZIGLER...........47

APPENDIX C - WRITTEN OPENING STATEMENT OF RANKING MINORITY MEMBER 
LYNN WOOLSEY, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES ..............51

APPENDIX D - WRITTEN STATEMENT OF MS. AMY WILKINS, EXECUTIVE 
DIRECTOR, TRUST FOR EARLY EDUCATION .....................................57

APPENDIX E - WRITTEN STATEMENT OF DR. ROBERT LAWRENCE, ASSISTANT 
DIRECTOR OF COLLABORATIVE SERVICES, DIRECTOR OF HEAD START STATE 
COLLABORATION PROJECT, GEORGIA OFFICE OF SCHOOL READINESS ...............65

APPENDIX F - WRITTEN STATEMENT OF HELGA LEMKE, EXECUTIVE DIRECTOR, 
COMMUNITY ACTION PARTNERSHIP OF SONOMA COUNTY, CALIFORNIA ...............73

APPENDIX G - DOCUMENT SUBMITTED FOR THE RECORD BY RANKING 
MINORITY MEMBER LYNN WOOLSEY: LETTER WRITTEN BY WINDY HILL,  
ASSOCIATE COMMISSIONER, HEAD START BUREAU, ADMINISTRATION FOR 
CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES .....83

APPENDIX H - DOCUMENT SUBMITTED FOR THE RECORD BY RANKING 
MINORITY MEMBER LYNN WOOLSEY: RESPONSE WRITTEN BY SARAH GREENE, 
EXECUTIVE DIRECTOR, NATIONAL HEAD START ASSOCIATION; TO A LETTER 
WRITTEN BY WINDY HILL,  ASSOCIATE COMMISSIONER, HEAD START BUREAU, 
ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH 
AND HUMAN SERVICE .......................................................87

APPENDIX I - DOCUMENT SUBMITTED FOR THE RECORD BY CHAIRMAN 
MICHAEL N. CASTLE, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES: LETTER 
WRITTEN BY COUNCIL OF CHIEF STATE SCHOOL OFFICERS .......................91

APPENDIX J - DOCUMENT SUBMITTED FOR THE RECORD BY CHAIRMAN 
MICHAEL N. CASTLE, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES: 
STATEMENT OF THE BUSINESS ROUNDTABLE ON THE "SCHOOL READINESS ACT 
OF 2003" ...............................................................97

APPENDIX K - STATEMENT SUBMITTED FOR THE RECORD BY THE HONORABLE 
TIM MURPHY.............................................................109

TABLE OF INDEXES ......................................................117





                            HEARING ON: H.R. 2210,

                     THE "SCHOOL READINESS ACT OF 2003"

                            TUESDAY, JUNE 3, 2003
                                  ___________

                          HOUSE OF REPRESENTATIVES

                      SUBCOMMITTEE ON EDUCATION REFORM

                 COMMITTEE ON EDUCATION AND THE  WORKFORCE

                                WASHINGTON, D.C.

	The subcommittee met, pursuant to call, at 10:05 a.m.  Room 2175, Rayburn House Office Building, Hon. Mike Castle [Chairman of the Subcommittee] presiding.

	Present:  Representatives Osborne, Ehlers, Biggert, Platts, Musgrave, Woolsey, Davis of California, Davis of Illinois, Grijalva, Kind, Kucinich, 
Van Hollen, and Majette.

	Also Present: Representatives Mica, Murphy, Burns, Isakson, and 
Payne.

	Staff Present:  Julian Baer, Legislative Assistant; Amanda Farris, Professional Staff Member; Kevin Frank, Professional Staff Member; Parker Hamilton, Communications Coordinator; Kate Houston, Professional Staff 
Member; Alexa Marrero, Press Secretary; Deborah L. Samantar, Committee 
Clerk/Intern Coordinator; Dave Schnittger, Communications Director; 
Mark Zuckerman, Minority General Counsel; Ruth Friedman, Minority 
Legislative Associate/Education; Ricardo Martinez, Minority Legislative Associate/Education; Joe Novotny, Minority Staff Assistant/Labor; and 
Lynda Theil, Minority Legislative Associate/Education. 

OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, SUBCOMMITTEE ON EDUCATION 
REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES.

Chairman Castle.  A quorum being present, The Committee on Education and the Workforce will come to order.

	We are meeting today to hear testimony on H.R. 2210, the School Readiness Act of 2003.  Under committee rule 12(b), opening statements are limited to the chairman and ranking minority member of the subcommittee.  Therefore, for other members who have statements, they may be included in 
the hearing record.

	With that I ask unanimous consent for the hearing record to remain open 14 days to allow members' statements and other extraneous material referenced in the hearing to be submitted in the official hearing record.

	Without objection so ordered.

	Good morning.  Thank you to all for joining us today for our second hearing to discuss the impact of the Head Start program in preparing disadvantaged children for school.  Since our last hearing, several of my colleagues and I introduced H.R. 2210, the School Readiness Act of 2003, 
which reauthorizes the Head Start Program for the next 5 years.

	The School Readiness Act of 2003 builds upon the reforms of previous reauthorizations of Head Start, as well as the recommendations of President Bush.  H.R. 2210 sends a clear signal that every child, regardless of 
economic status, should have the best chance possible to succeed.

	We all can agree on the need for Head Start and its astounding success, but we must also recognize that Head Start can produce even greater results for children.  Students who attend Head Start programs start school more prepared than those with similar backgrounds who do not attend 
Head Start.  However, Head Start students continue to enter kindergarten well below national norms in school readiness.  By moving to close this school readiness gap, the School Readiness Act will improve results for almost a million Head Start students across the Nation.

	Under this bill, Head Start children will have a greater opportunity to enter school with demonstrated pre-reading, language, and pre-mathematics skills, as well as the benefits from the nutritional and health services that Head Start has always provided.  Children's progress will be determined by using scientifically based, clear criteria that will enable parents and teachers to accurately view a child's development.

	This bill also will require Head Start teachers to be more prepared 
to ensure young children are ready for school.  By 2008, 50 percent of all Head Start teachers must have a baccalaureate degree, and after three years, no new teachers will be hired without an associate degree.

	H.R. 2210 also improves the accountability of Head Start programs.  
As under current law, local grantees will be responsible for their use of 
the Federal funds, but unlike the present system, H.R. 2210 requires 
grantees to demonstrate results in order to maintain its guarantee privilege.  In this legislation, recipients of Head Start grants will have to demonstrate that they have met program improvement goals in order to continue receiving federal Head Start dollars.  Those who fail to meet those goals would first receive additional assistance to help them improve their program.  
This bill demonstrates our commitment to Head Start by authorizing a $202 million increase, making it a $6.87 billion program.

	For some states, this bill will also provide the opportunity for increased integration of preschool programs with Head Start.  This 
opportunity will only be available to States that have exhibited a 
substantial dedication to early childhood education and care through 
financial investment, the creation of statewide school readiness standards 
and professional development requirements for early childhood teachers.  States that take advantage of this opportunity will be required to maintain their current levels of State funding, thus protecting Head Start from State 
budget cuts.

	The State Demonstration Program was developed out of a recognition that the emergence of pre-kindergarten programs in many States are adding to the already existing patchwork of child care and preschool programs serving preschool children and their families.  As a result, children in different programs are likely to receive varying levels of quality care, with different degrees of emphasis on cognitive development and school readiness.  Further, Head Start, State Pre-K, and other preschool programs within a State often 
are duplicative.  Through coordinating efforts to recruit children, 
developing State guidelines for care, aligning school readiness standards with K-12 goals and other activities, a State can leverage resources to spend funding more efficiently and also serve additional children better.

	My home State of Delaware has recognized the positive impact coordination will have on children.  Delaware's Early Childhood Assistance Program has not only adopted Head Start standards but also uses some of the current Head Start grantees to operate the program.

	Through these and other improvements, H.R. 2210 will increase the likelihood of Head Start children starting kindergarten at the same level as their more advantaged peers.

	While the introduction of the School Readiness Act is a good first step, I remind each of you that we are at the beginning, not the end of this important process to reauthorize the Head Start program.  I look forward to working with my colleagues on both sides of the aisle to improve this 
legislation as we move forward.

	Today we will hear from experts who will help us to consider the merits of this legislation and ways in which it may be strengthened.  Our witnesses' unique perspectives on Head Start will offer insights that will 
be tremendously helpful to the members of this committee as we work to 
improve this important piece of legislation.  We look forward to their comments.

	With that I yield to my colleague from California, Ms. Woolsey, for whatever opening statement she wishes to make.

WRITTEN OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES - SEE APPENDIX A OPENING STATEMENT OF RANKING MINORITY 
MEMBER LYNN WOOLSEY, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES.

Ms. Woolsey.  Thank you, Mr. Chairman.

	It is good that we are having another opportunity to review Head 
Start this morning, particularly since your proposed legislation is before them, and we can all respond to that, H.R. 2210.  And I am glad that we are not going immediately to a markup.

	And, Mr. Chairman, I want to tell you that I am counting on you to ensure that we get a subcommittee markup before we go to full committee, because I think it is very important for the debate and for what we need to 
be talking to so that our country understands what we are talking 
about when we talk about changing Head Start significantly.

	I have a number of concerns and questions about H.R. 2210, but my concerns are particularly about title II of the bill.  But before I talk 
about those, I want to state for the record how very proud I am that one of 
my witnesses, one of our witnesses today is Helga Lemke, who is the 
Executive Director of Community Action Partnership of Sonoma County, which is part of the District that I represent in the Congress.

Ms. Lemke has been with Community Action Partnership since 1989.  
She has always been a well-informed and thoughtful resource for me on Head Start and many other community programs, and I know that this committee is going to benefit greatly from her testimony.  I also know that, along with Helga Lemke, many others in this room share my concerns 
about Title II of H.R. 2210.

	For nearly 40 years, the Head Start program has been the shining example of this Nation's commitment to a better life for low-income 
children.  In fact, we have documented research that Head Start is keeping that commitment, preparing children in a variety of ways to succeed in 
school and in their lives.  So I guess my most basic question is, why would 
we want to make the fundamental changes to Head Start that are included in title II of your bill, the changes that are going to cause such a great 
amount of concern to all the rest of us?  What good reason could there 
be to turn Head Start funds and the responsibility for maintaining Head Start's current high quality and performance standards over to the States, particularly at the time when States are facing huge budget deficits; they 
are cutting back on their own childhood programs.  Why would we want to 
give them this successful program?  Part of that and part of title II would 
be the eligibility requirements for participating in the block grant demonstration.  These requirements are so broad that there isn't a single State that wouldn't be eligible right now without even taking a second look.  
Title II would be one huge super waiver of current Head Start law that will weaken and eventually, I believe, kill Head Start.

	And, Mr. Chairman, I want to include in my statement a quote from Dr. Edward Zigler.  He was quoted when he was asked about the Head Start block grant proposal, and for those who don't know who Dr. Zigler is, Edward Zigler was the father of Head Start.  He was named by President Richard Nixon to be his Director of the Office of Child Development.  Dr. Zigler is currently a 
professor of research at Yale University.  And Dr. Zigler says only in part, "I see a waiving of standards in exchange for the promise that such standards will be instituted within 2 years, which is an astonishing approach to stewardship of Federal tax dollars.  I have researched the question of 
whether or not States can do a better job of running Head Start.  We 
compared State-run preschools with Head Start as it exists today and found Head Start a clear winner in almost every category." .


Mr. Chairman, I ask unanimous consent to include Dr. Zigler's complete statement into the record.


Chairman Castle.  Without objection it will be included.

DOCUMENT SUBMITTED FOR THE RECORD BY RANKING MINORITY MEMBER LYNN 
WOOLSEY: WRITTEN ARTICLE QUOTING DR. EDWARD ZIGLER - SEE APPENDIX B 

Ms. Woolsey.  So, Mr. Chairman, here is my question.  Why are we 
dismantling a good program when indeed our efforts should be used to 
making this program available for every single eligible child in this 
country by full-funding Head Start?  Why aren't we learning from the 
successes of most of the programs across this country and duplicating 
those successes throughout our Nation?  Why aren't we looking at not protecting our Head Start workers by contracting out Head Start programs?

Mr. Chairman, we have a lot of work to do to keep this great program 
together and making it available for every child in this Nation that is eligible.  Let us not ruin what is a good thing.  And 
I yield back the remainder of my time.

WRITTEN OPENING STATEMENT OF RANKING MINORITY MEMBER LYNN 
WOOLSEY, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION 
AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES - SEE APPENDIX C

Chairman Castle.  Thank you, Ms. Woolsey.  Hopefully, we will get 
the answers to some of your questions today.  Maybe we will not, but we will try.

	We have a very distinguished panel of witnesses before us, and I 
thank all of you for coming today.  I think we will go through the introduction of the witnesses.  I will introduce some, and then Mr. 
Isakson will introduce some as well.

	The first witness will be Ms. Amy Wilkins, who is a nationally recognized expert in early child education and education reform.  As the Executive Director of the Trust for Early Education, she advocates for 
high quality, voluntary preschool for all 3 and 4-year-olds.  Prior to 
being named director of TEE, Ms. Wilkins coordinated the Education Trust Policy, Governmental Affairs Research and Communication Office, where she advocated for standards-based K through 16 reform.  Before her work at the Education Trust, Ms. Wilkins worked for the Children's Defense Fund, the nation's largest child advocacy organization on child care and Head Start issues.

	Mr. Isakson will introduce Dr. Lawrence and Daphne Haley.

Mr. Isakson.  Thank you, Mr. Chairman.  I commend you on H.R. 2210.

	I appreciate the opportunity to sit in on the Subcommittee and introduce two people whom I will introduce together because they are a 
team.  I think it would really be unfair to introduce one over the other because they are critical to Georgia's collaborative effort on early 
childhood development, Head Start, and our four-year-old Pre-K Program.

	First is Dr. Robert Lawrence.  Dr. Lawrence is the Assistant 
Director of the Office of School Readiness, but also runs and is the 
Director of Georgia's Head Start Collaboration Project.   This project is critical to the very types of things you are talking about in terms of innovation in this legislation.

	Daphne Haley runs the Georgia 4-year-old Pre-Kindergarten Division 
of the Georgia Office of School Readiness.

Mr. Chairman, in 1993 the State of Georgia, with the help of Zell Miller, 
who was then the Governor, now a Senator from Georgia, created through the funding of the lottery, the 4-year-old Pre-Kindergarten Program available 
to any eligible 4-year-old that chose to take it.

	This coming year, 65,000 Georgia 4-year-olds will attend a Pre-K Program coordinated between public and private providers with about 53 
percent being provided in the private sector, 47 percent in the public 
sector.  All curriculum standards and coordination run through the Office 
of School Readiness in the 4-year-old Pre-Kindergarten Program, which I 
think is an excellent demonstration of how the public and the private providers can collaborate to meet the needs of a large number of Georgians that otherwise could not be met through one segment or the other.  We 
in Georgia recognize that the key to leaving no child behind is making sure they get a head start when they have gotten a slow start.  Through no fault 
of their own, some of our children come from very deprived and disadvantaged environments.  The importance of allowing them at ages three, four, and five to receive the type of nurturing, the type of education, the type of instruction, the type of motivation, and the type of life examples to allow them to compete is the absolute goal of Georgia's Office of School Readiness, and I am very proud that the Committee, through no encouragement of mine I might add, which must mean they are best in the country, looked all over 
the country and found Dr. Lawrence and Daphne Haley to be here today.  I am confident that the committee will benefit greatly from their testimony.  I welcome them for being here, and I thank them for what they are doing for 
the children of Georgia.

Chairman Castle.  Let me turn to Ms. Woolsey, who has already mentioned and discussed Ms. Lemke at length, to see if she has anything further to say.

Ms. Woolsey.  Actually, yes.  One thing I would like to say in our 
listening to Ms. Lemke, who is such a valuable part of our community at the Community Action Partnership of Sonoma County where she has been since 1989.  I was elected in 1992, and immediately I knew that Helga Lemke was going to 
be one of my number one voices to listen to when it came to programs like 
Head Start and other community programs.  She has a huge job in Sonoma County.  And in looking at Ms. Lemke, I would like to add something that I think we 
should be very careful of when we are reviewing and reauthorizing Head Start, and that is that we not intimidate Head Start staff into believing that they cannot express their thoughts and opinions about the future of Head Start.  And what makes me think of that is that who better than a person like Ms. Lemke and affiliates sitting there next to her, who better knows about this subject and about these programs, Mr. Chairman, than the people that work with them and are part of them day in and day out?

	So I welcome Ms. Lemke, and I thank you for being open with us.

Chairman Castle.  Thank you, Ms. Woolsey.  I welcome you too, 
Ms. Lemke.

	I will now go to the witnesses.  I think you know the basic rules.  You each have 5 minutes to make your presentation.  Your written statements are all accepted for the record.  You have little lights there.  You have a green light, I believe, for 4 minutes; a yellow light for 1 minute and then 
it goes red.  When you see red, start thinking about winding it down, as it will be helpful in this process.  We will go in the same order which the introductions took place.

	After you have testified, we will alternate from Republicans to Democrats asking questions for 5-minute segments, which include the 
questions and the answers.  So, obviously, relatively direct answers to 
the questions would be helpful in that process.

	With that, we will start with you Ms. Wilkins.  Welcome. 

STATEMENT OF MS. AMY WILKINS, EXECUTIVE DIRECTOR, TRUST FOR EARLY EDUCATION

Ms. Wilkins.	Thank you.  Good morning.

	My name is Amy Wilkins.  I am the Executive Director for Trust for Early Education.  I greatly appreciate the Chairman's invitation to appear before you today, and I am deeply grateful for the many hours that staff 
and members on both sides of the aisle have spent working with us 
answering our questions, suggestions and concerns about this bill.

	Head Start is a tremendous program.  It has improved the lives of millions of children, and we are here today to talk about how to make it 
even better.  Our work must be informed by the lessons learned since Head Start's inception.  Through new and more sophisticated research, we 
have learned that how much children know before they enter school has a major impact on their future academic success.  Children who know their letters, shapes, and numbers before they enter kindergarten are stronger readers by the end of first grade than children who do not.

	While Head Start is the centerpiece of our national Pre-K efforts, 
it is only one part.  After 40 years, Head Start is still only serving 60 percent of the eligible children.  Forty States, seeking to emulate Head Start's success, have established their own early education programs.  
These programs, which admittedly vary in quality, now serve more children, most of them poor, than does Head Start.  We believe that the best step we 
can take to promote high quality, early learning is to increase the amount 
of formal education required of pre-kindergarten teachers.

	The National Research Council of the National Academy of Sciences 
has recommended that Pre-K teachers hold BA degrees with specialized 
training in early education.  Better educated teachers will not only help 
Head Start advance the intellectual development of children, but research indicates that teachers with BAs are better able to support positive social and emotional development than teachers with less formal education.

	We applaud the requirement in this bill that half of all Head 
Start's lead teachers have BAs by 2008.  However, if we hope to attract and retain well-educated teachers for Head Start, we must pay them competitive wages.  Individuals with bachelor's degrees and specialized training in 
early education can earn about twice as much teaching in a public school kindergarten as they can in a Head Start program.  The 60 percent quality 
set-aside in this bill is a down payment.  Additional funding will be 
critical over the next 5 years to keep the quality promises that this bill makes.  As powerful as we think the 50 percent BA requirement in this bill 
is, we think that this Committee can make that requirement even more 
powerful next week when you mark up Title II of the Higher Education Act by allowing States to use Title II funds to improve the education of preschool 
teachers, as well as K-12 teachers.

	Over the long-term, the only way to ensure that all children, but particularly low-income, children have access to high quality Pre-K is 
through a carefully planned State/Federal partnership.  We share the view of the drafters of this bill that Head Start policy must begin to recognize the 
large and growing role of State Pre-K programs, but any Federal demonstration project must adhere to three key principles.  One, such partnerships must not lead to an atrophy of Federal action on Pre-K.  Indeed, the Federal Government's investment must grow and its policies must improve to 
leverage greater investment in quality improvement in the States.  Two, demonstration projects must protect the interests of low-income children if not advance those interests.  And, three, the demonstration must be crafted 
to yield reliable information in the short term to inform policy in the 
long run.

	We appreciate the willingness of the Committee to listen to our suggestions regarding the Federal/State demonstration partnerships, and we would offer five recommendations for strengthening Title II based on these principles.  Additional ideas about how to improve Title II are in my 
written testimony.

	First, we believe that only those States that have a substantial 
Pre-K effort now should be allowed to apply for demonstration partnerships.  Specifically, only States in which the State Pre-K investment equals at 
least 75 percent of the funds the State receives from the Federal 
Government through Head Start should be allowed to apply.

	Second, applications should be limited to those States that already have a BA requirement for their teachers or have an associate degree requirement and are willing to move to a 50 percent BA requirement by 2008 should be allowed to apply, and applications should be limited to those 
States that already have Pre-K learning standards aligned with their K-12 standards.  States should submit plans with measurable annual goals for quality improvement and expansion.

	Third, there should be a rigorous approval process that not only 
gives the Secretary authority and discretion but also provides some advice 
by a peer review panel.

	Fourth, we are pleased that the Committee has included a maintenance of effort provision in Title II; however, Title II needs to be strengthened with provisions to ensure that the percentage of low-income children served not be reduced to ensure that as many children as possible receive two 
years rather than one year of Pre-K and that Federal funds now being used by States to support Pre-K programs not be reduced.

	Finally, the bill recognizes the need for evaluation, but the evaluation should be strengthened with resources and deadlines.  We 
understand that this bill represents only the beginning of a critical 
dialogue between Congress, the Administration, States and the many other 
stakeholders with an interest in the Head Start program.  We look forward 
to working with all members of this Committee in the coming weeks and months to improve this legislation.

	Thank you.

WRITTEN OPENING STATEMENT OF AMY WILKINS, EXECUTIVE DIRECTOR, TRUST 
FOR EARLY EDUCATION - SEE APPENDIX D

Chairman Castle.  Thank you, Ms. Wilkins for your 
interesting testimony.  We will now turn to Dr. Lawrence.

STATEMENT OF DR. ROBERT LAWRENCE, ASSISTANT DIRECTOR OF COLLABORATIVE SERVICES, DIRECTOR OF HEAD START STATE COLLABORATION PROJECT, GEORGIA 
OFFICE OF SCHOOL READINESS

Dr. Lawrence.  Thank you and good morning.

	On behalf of the State of Georgia and the Georgia Office of School Readiness, I would like to thank the members of this Committee for the opportunity to provide testimony this morning on H.R. 2210, the School Readiness Act of 2003.

	As a nationally recognized leader in the field of early care and education, our State is uniquely qualified to speak about issues related 
to the development and implementation of a comprehensive, high-quality preschool program for children and families.  In addition, the 
excellent relationship that our office has developed with Georgia Head 
Start programs over the past 10 years gives us a historical perspective on 
the coordination of Federal and State funds for early care and education 
that we think can serve as a model for other States.

	With that in mind, I would like to make three brief points this morning in my testimony.  First and most importantly, I want to underscore 
the enormous contributions that Head Start programs have made on behalf of low-income children and families in Georgia over the past 35 plus years.  Secondly, I want to provide examples to this Committee on how our lottery-funded Pre-K Program has collaborated with Head Start over the past 10 
years; and lastly I want to speak about Title II of H.R. 2210 that 
authorizes the State Demonstration Program to allow a limited 
numbers of States the opportunity to integrate existing preschool 
programs with Head Start.

	The Georgia Office of School Readiness has long recognized that Head Start's Program design serves as a model for all programs, whether they are Federal, State or locally funded, that target services to low-income 
preschool children and their families.  By that I mean, the rigorous 
Head Start performance standards, the comprehensive services to children and families, including parent training and education and supportive social services, appropriate curricula that addresses each child's educational 
needs, and other activities that promote the social and emotional well-
being of young children are all necessary ingredients to help ensure the positive development of children within the context of a supportive family environment.  The Federal Government recognized from the inception of Head Start that these program design elements were critical to providing children from low-income families an opportunity to grow and develop in concert with 
children from more advantaged backgrounds.  A large measure of the success our office has had with our Head Start partners over the past 10 years has been the result of our belief that the Head Start program model of services gives Georgia's low-income children and their families those opportunities that are necessary for success in school and in life.

	As you may know, the Georgia lottery-funded program for 4-year-old children is recognized as one of the premier school readiness programs in 
the country.  We recently celebrated our tenth anniversary of providing 
Pre-K services to all Georgia 4-year-old children.  To date, we have served over 500,000 4-year-olds through the use of lottery funding.  The model for the delivery of services in the Georgia Pre-K program closely parallels that of Head Start and includes the following elements:  An educationally enriched and developmentally appropriate curriculum, a rigorous evaluation process, appropriate child/staff ratios, the requirement that each program is 
evaluated, and comprehensive training for all teachers and other support staff.  The Office of School Readiness has had a unique opportunity over 
these past 10 years to design and implement a Pre-K program that our research tells us has met its goal of preparing children to enter school with 
the necessary cognitive, physical, social and emotional skills, and 
abilities to be successful.  The support of our program from previous Governors Zell Miller and Roy Barnes, through our current Governor, Sonny Purdue, coupled with the support we received from all citizens of Georgia 
who have children in our program, has been instrumental in the success that 
we have enjoyed.

	As a result of our shared vision and commitment to high quality programs for preschool children, the Office of School Readiness has in 
enjoyed a long and fruitful collaborative partnership with Head Start over 
the past 10 years.  We have enjoyed our relationship, and we have done a number of very creative things like sharing training, or doing joint 
training together.  We have used our lottery dollars to extend the Head 
Start day to provide wrap-around services for Head Start families.  Those 
are just a few examples of what we have done with our Pre-K Program in 
support of our Head Start Program.

	Lastly, I would like to comment very briefly on Title II of the 
School Readiness Act of 2003 that addresses the concept of the State Demonstration Program.  In Georgia, we recognize that the details of this innovative concept are still being worked out and that the success of any State Demonstration Program will rest in large measure on the combined 
efforts of the Head Start community and its State partners to design a plan that is acceptable to all parties.  It is our opinion that no State Demonstration Program will be successful unless there is a true spirit of cooperation and collaboration between Head Start and its State partners.

	Based on our historical relationship with Head Start, the success of our collaborative partnerships over 10 years and the visionary leadership of our current Governor, Georgia welcomes the opportunity, if it should present itself, to participate in State Demonstration Program, and I would like to ensure the Committee that if Georgia participates in the State demonstration program, we will adhere to four guiding principles.  Number one, we are committed to being the best possible steward of the Federal funds that come 
to our State.  Number two, we will continue to honor the legacy and philosophy of Head Start in the implementation of the program.  Number three, we are committed to maintaining Head Start's rigorous standards, its services to children with disabilities, and its maintenance of effort.  We are currently serving approximately 22,000 children.  We assure this Committee and the Head Start community that we will maintain at least that level of effort.  And lastly, we are committed to conducting a thorough and independent evaluation of this demonstration program to ensure its effectiveness.

	In closing, I would like to thank the Committee and its membership 
for the opportunity to share, with each of you this morning, examples of 
the innovative partnerships that our office has developed with Head Start.  
In addition, we are thankful for the opportunity to express our support 
and respect for the work that Head Start has done on behalf of millions of low-income children and their families during its rich history.

	Thank you.

WRITTEN STATEMENT OF DR. ROBERT LAWRENCE, ASSISTANT DIRECTOR OF 
COLLABORATIVE SERVICES, DIRECTOR OF HEAD START STATE COLLABORATION 
PROJECT, GEORGIA OFFICE OF SCHOOL READINESS - SEE APPENDIX E


Chairman Castle.  Thank you Dr. Lawrence.

	  Ms. Haley, I understand you are going to answer questions, 
like a pinch hitter, if you will, when the time comes.

	So we will now go to Ms. Lemke for her testimony.

STATEMENT OF HELGA LEMKE, EXECUTIVE DIRECTOR, COMMUNITY 
ACTION PARTNERSHIP OF SONOMA COUNTY, CALIFORNIA

Ms. Lemke.  Good morning, Chairman Castle, ranking member Woolsey, 
and members of the Committee.

	Thank you for offering me the opportunity to speak today on behalf 
of Head Start.  I would like to begin my testimony with a story.  Cori, a 
Head Start employee, first came to Head Start at a low point in her life.  
She was a single parent without a support system and with very little money.  
She had just completed a recovery program and as seeking to put her life 
back together.  A local agency suggested Head Start.  She enrolled her daughter and with some nervousness arrived at a neighborhood Head Start 
for the first day of the program.  The Head Start teacher welcomed her, 
hugged her, and said, "We're so happy you and your daughter are here.  We 
need parents like you." 

	This was the beginning of a new life for Cori.  It was literally the first time in years that she felt needed, comfortable and good about herself and her life.  Cori went on to volunteer and work for Head Start.  She completed an AA degree because, as she says, "my goal was to give back to 
Head Start all they had given to me."  Her current goal is to get a BA 
degree.  In her application for a scholarship she wrote, "I am a single parent.  I support my two children by myself both physically and financially.  I believe that because I am their role model, by continuing my education it will show them that this is something I value." 

	For the last 14 years I have been Executive Director of Community Action Partnership of Sonoma County, a community action agency whose mission is to help low-income people become self-sufficient.  We serve, among our other programs, 552 Head Start children and their families.  Cori, whose 
story I just told you, is one of our program's shining successes.  But she 
is only one of many.

	Why is Head Start so successful?  It is successful because of the 
way it is designed and administered.  There are four key elements that contribute to the success of the Head Start program:  Comprehensive 
services, collaboration, quality and accountability, and the insistence on continual improvement.

	Let me make just a few comments about some of these elements.  
There is more detail in my written testimony.

	Comprehensive services:  Poverty is complicated.  Limited 
education, inadequate health care, lack of support systems, low self-esteem, poor parenting skills, domestic violence, are only some of the issues that contribute to sustained poverty.  That is why Head Start uses a 
comprehensive approach, emphasizing education, health, nutrition, social services to families, and parent involvement.

	Collaboration:  Head Start is a model of collaboration in 
partnership.  Our Head Start program has more than 50 formalized 
collaborative agreements with community organizations and is part of a 
school readiness initiative that our agency developed in partnership with local schools.

	Quality and Accountability:  A key characteristic of Head Start is 
its quality and accountability.  As evidenced by its rigorous performance standards and annual program prescribed self-assessment in a triennial, weeklong monitoring by an independent group of evaluators.  Assessment of children takes place three times a year using a standardized validated tool.

	Continuing Improvement:  More than any other program I work with, 
the hallmark of Head Start is emphasis on continuing improvement.  Of course, there is always room for more improvement.  It is especially important that we invest in teacher training and the teachers themselves, and you have indicated that some of that is in Title I of the bill we are talking about.

	Head Start works.  Head Start results are impressive.  Let us build 
on the firm foundation we already have.  We oppose the transfer of Head Start to the States, whether in the form of a 50-State block grant, an optional 
opt-in program, or any other configuration.  Our concerns are as follows:  
One is, the importance of Head Start, as a national program cannot be overstated.  The program was designed to ensure the same quality in every State in the country.  This goal is just as important today, especially 
since only three States have adopted stringent quality standards equal to 
those of Head Start.  Secondly, Head Start's strength lies in its 
performance standards that guarantee quality and comprehensive services.  
The language in Title II is vague.  There are no guarantees, no requirements for performance standards, no enforcement mechanisms, and no specific 
minimum standards about classroom size, teacher-student ratio or teacher education.  Thirdly, I come from California.  We have an incredible $38 billion deficit.  Cash-strapped States cannot be relied upon to maintain 
the quality and comprehensive services of Head Start.  School budgets are being slashed in California and in our counties; some schools are even 
facing bankruptcy.  The current bill, as I understand it, requires no financial commitments from State to make and keep this program a priority.  
It is also inevitable, in my opinion that if the program is turned over to 
the states and the Federal Government no longer has direct responsibility, Federal funding for the program will inevitably decline.

	In conclusion, for nearly 40 years Head Start has been the first 
step on the path of educational achievement of America's neediest children 
and families.  We support the goals for quality improvement and strengthened collaboration among programs that are stated in Title I and hope they are accompanied by adequate investment.  Turning over Head Start to the States 
in the manner outlined in Title II, however, will only in our opinion serve 
to undermine the progress we have achieved and threaten our local program, 
as well as thousands like it around the country.

	Thank you very much for the opportunity to offer my views.

WRITTEN STATEMENT OF HELGA LEMKE, EXECUTIVE DIRECTOR, COMMUNITY 
ACTION PARTNERSHIP OF SONOMA COUNTY, CALIFORNIA - SEE APPENDIX F

Mr. Osborne.  [Presiding.]  I would like to thank the panel for being here 
today and appreciate it very much.  And at this time we will engage in some questioning.  Each member will have 5 minutes, and, hopefully, we can honor the clock.

	I would like to begin with the questioning.  The FACES study, Family And Child Experience Study, indicates that children generally enter Head 
Start at about the 21st percentile in terms of readiness to learn, and it 
also indicates that when they leave Head Start and enter kindergarten, oftimes, they are roughly at the 24th percentile.  Sometimes if you look at raw scores, they may not have improved, maybe even have decreased.

	Now, personally, I am a great fan of Head Start.  I have visited 
Head Start programs, and I see some tremendous things happening, and yet we are trying to justify a $7 billion program to the taxpayers.  First of all, 
I am wondering do you feel that the FACES study, and those figures it 
presented are in some way flawed?  If they are accurate, obviously, they 
are somewhat alarming.  Secondly, I think you have already addressed your ideas about what to do about improving Head Start, but I would like to get your thoughts as to what we would tell the average taxpayer as to why 
we should invest in Head Start, why we should increase funding and what we 
do about improving those numbers.

	Ms. Wilkins, would you like to start and take a shot at that?

Ms. Wilkins .	Yes.  The FACES standard is probably about right.  Head 
Start does narrow the school readiness gap between low-income kids that 
attend and more affluent kids when they enter kindergarten.  It is absolutely true and Head Start has done a good job.  It seems to us that the biggest difference between Head Start and programs that have a stronger gap-narrowing effect is the formal education level of the staff.  The programs that we 
looked at like the Perry Preschool Program, the Abecedarian Program in North Carolina, the Chicago Child Parent Center all have staff with at least BA degrees.  In order for Head Start to get as powerful results for low-income kids, we need to give them the very best teachers we can.  Beyond the formal education, we need to couple that with ongoing, high quality professional 
development and the 60 percent quality set-aside that you guys have put into Title I. These requirements together with the BA requirement and the 60 percent set-aside, I think will boost the ability of teachers to help kids close the gap even more.

Mr. Osborne.  So do you see some wide variance program to program 
when you measure improvement in readiness?  You realize, overall, the 21 percent, 24 percent improvement is very slight.  But I am assuming you are saying there are variances within the programs.

Ms. Wilkins.  Between programs.

Mr. Osborne.  Between programs.

Ms. Wilkins.  Absolutely.

Mr. Osborne.  You are saying that the number one issue, as far as you are 
concerned, would be teacher preparation?

Ms. Wilkins .	Preparation, coupled with training.  We know that high levels of formal education help.  You need a good solid foundation to begin with, 
but then through the life of the instructor, you need to provide her, it is usually a her, with solid, ongoing professional development.  If you do 
those things, we believe that you will see a real increase in Head Start's ability to get kids off to a strong start.

Mr. Osborne .	Thank you.

Dr. Lawrence, do you have any reaction to my question?

Dr. Lawrence.  Well, I would concur generally with what Ms. Wilkins said.  
I would just add a note of caution.  Most States, which I am familiar with, are still struggling with exactly what we even mean by the concept of school readiness.

	We are clear in Georgia what we are talking about, but I am not sure every State in this country has a consistent definition.  So when we talk about school readiness indicators, I think we need to first look on a State-by-State basis and see what States define as school readiness.

	Secondly, I think it is important that we understand not only the strengths of our programs, whether they are the Georgia Pre-K program or the Head Start program, but also understand their limitations as well.  None of these programs are a magic bullet that can forever change the developmental life-course of a child.  It is unusual when that happens and the studies 
that we hold up as model, as Ms. Wilkins mentioned, the Abecedarian Project and the Perry Preschool Project are not representative models of your normal Head Start program or your normal State-funded Pre-Kindergarten Program.

	So I say in that regard, while I agree that the FACES study was a well-designed study, and the results, I think, are indicative by and large 
of what you would expect in a Head Start Program, research does not tell 
the whole story.  And I think we just need to caution ourselves.  It is 
important, but we also need to be aware of what our expectations for these programs should be.

Mr. Osborne.  Thank you.  I see that my time has expired.

Ms. Woolsey.  Mr. Chairman, we would unanimously allow you to finish 
your questioning if you would like.

Mr. Osborne.  All right.  Ms. Lemke, would you care to respond to the 
question regarding the FACES study?

Ms. Lemke. Well, I think the comments that strike me the most in the 
FACES study are the ones that say Head Start children leave kindergarten 
ready to learn, and once they are in kindergarten, they make substantial progress in a number of areas including word knowledge, letter recognition, math skills, et cetera.  The other point I would like to make is that the children who enter Head Start face formidable barriers.  Fifty percent of 
all Head Start parents earn less than $12,000 a year.  Almost 28 percent of the children come from a home where English is not the primary language.  
In our case, we are approaching 60 percent.  Twenty-five percent of the parents have not graduated from high school.  When you look at those 
factors, I think, to me, the progress is remarkable, and it is an 
indication of the great need for the family support and the parent 
involvement components.

Mr. Osborne.  Thank you.  I certainly concur.  Some of the language 
barriers are oftimes addressed within Head Start.  I think that is 
certainly laudable.

	So at this time, Ms. Woolsey, please go ahead with your questions.

Ms. Woolsey.  Thank you, Mr. Chairman.  And we are clear that we 
weren't using my time for that.

Mr. Osborne.  We understand.

Ms. Woolsey.  Thank you very much.  I want to go on record for everybody to know that I believe this Nation ought to have universal voluntary preschool for all kids, and I also want to congratulate Georgia for your Pre-K program and that is what I see as a universal program for kids that don't have particular needs from poor families that need to adjust, language, don't 
have parents that don't understand the education system in the first place.  We still need Head Start.  We will always need Head Start and Head Start programs.  And I just want you to know that if we had universal preschool, that would not level the playing field, because we would still have kids in the preschool that were ahead of the kids that weren't, and we need to make sure that can happen.  And so I just want people to know that that is how I think about this stuff.

Ms. Lemke  XE "Ms. Lemke"  , H.R. 2210, in our current economic situation, 
in our State and most States across this country, would put a lot of demands on the States that they don't have right now.  How would they pay for the programs?  What would happen with Head Start if quality improvements and expanding the number of children served and raising the education standards for our teachers in Head Start, certainly we should be able to do that, but 
we need to be able to pay them.  That is all about funding, folks.  What 
would happen to the current Head Start programs if we handed that over to 
Gray Davis?

Ms. Lemke.  Well, that is a scary thought.  Head Start as we know it, I 
have no doubt, will not continue if California would get the program.  The pressures, the financial pressures in our State are simply too great.  The language, as I have looked at it, in Title II, is very weak.  The 
supplanting language does not give me any belief that the program would not 
be incredibly weakened.  You could serve the same number of Head Start children but provide fewer services.  There has only been general language about preserving the integrity of the program.  There are no enforcement mechanisms, and I have no doubt that in California, when they cannot 
afford to pay for our existing schools, that they would not keep Head Start 
as it is.

Ms. Woolsey. Thank you.

Ms. Wilkins, there will be changes in Title II and with the States 
receiving the funds through block grants.  How will they meet the 
requirements of 50 percent of Head Start teachers having bachelor's 
degrees?  Where does the funding come from, how do we decide what 
programs do not get funded because of that?  I agree with you that it 
ought to happen, but let us be realistic.  How will that happen?

Ms. Wilkins.	Well, Congress needs to make the commitment to Head Start 
to provide the wages necessary to attract and retain well-qualified teachers for Head Start.  It is simple as that.  If we want a better program, we have got to pay for it.  And we have estimated over the next 5 years to raise the salaries of the 50 percent of the Head Start teachers to salaries that are commensurate with what those same individuals with those same qualifications 
might earn if they were teaching kindergarten, it will cost about $2.2 billion.  You have made a promise in this bill, and we hope that in out 
years of this bill, that this Congress finds the money to keep those promises.

Ms. Woolsey.  So have you followed the President's initiative of Leave No 
Child Behind and how under-funded that is?

Ms. Wilkins.	Yes we have.

Ms. Woolsey.  Well, okay.  But you are saying in the best of all worlds, 
that is how we would do it?

Ms. Wilkins.	Right.

Ms. Woolsey.  But what if we set that standard and we don't have the 
funding for it, we don't fund it?  We do have the funding but.

Ms. Wilkins.	I think I am more than disappointed, and, in fact, angry that the administration has not kept the promise it made in Leave No Child Behind.  I think that Congress has to stay on the administration about providing that money, and I think if you make this promise of 50 percent BAs in 5 years, 
that Congress has to keep the promise to kids.

Ms. Woolsey.  Thank you very much.

Mr. Osborne.  Thank you, Ms. Woolsey.  Mrs. Musgrave.

Mrs. Musgrave.  Thank you, Mr. Chairman.

	I had a question for Dr. Lawrence first.  Can you talk a bit about 
the ways the public and private sectors can work together in improving early education, please?

Mr. Lawrence.  I can turn to the model that we use in our State, in which 
the data was presented earlier in our testimony.  53 percent of our Pre-K Programs are funded in private for-profit centers, and then 40 percent in public centers.  Because of this collaboration, we have designed a model 
that we think is a very useful and worthwhile initiative and a project that 
other States could look to.  I think this gives us a nice balance in our 
State of different types of settings that gives parents choices that they 
can make.  They want to send their child to a public school Pre-K Program or the want to send their child to a private for-profit childcare center.  So 
I think that model works best for us.  It increases parental choice while assuring across the board that the standards are the same whether those children are in the Pre-K Program in the public schools or in the Pre-K Program in the private centers.  This has worked well for us in our State.

	But I do want to say something that I think is extremely important.  When we speak about the successes that we have had in Georgia, we want to acknowledge two things.  Number one, we have been very fortunate to have consistent leadership from our governors for the Georgia Pre-K Program and 
for the Head Start collaboration piece that we have spoken about this 
morning.  Secondly, we have lottery funds that have been directly designated for the purpose of funding these preschool programs and they cannot be used for any other purpose.  The lottery has maintained its integrity.  It is 
above reproach, and so we are very fortunate to have a consistent funding stream.  The lessons that we have learned in Georgia, in some ways, are 
unique only to Georgia.  Frankly, I have concerns about Title II of this 
bill as it relates to the ability of other States to meet the rigorous 
standards of Head Start, to maintain the integrity, and philosophy of Head Start.  So when I speak about our support of this part of the legislation, 
it is only because of those conditions that exist in Georgia that we think 
it would be successful for the reasons that I stated.

Mrs. Musgrave.  Further, maybe this would be addressed to you also, 
Dr. Lawrence.  Could you tell me about evidence that suggests when teachers have bachelor's degrees that the school readiness of those students is improved a great deal?  Could you address that for me, please?

Dr. Lawrence.  Well, if you do not mind, could I turn that over to my 
colleague in Pre-K, Ms. Haley and let her address that?

Mrs. Musgrave.  Certainly.  Thank you.

Ms. Haley.  We have seen a great deal of research.  I 
think NACI has research that shows the higher degree of the teacher, the better the outcomes for the children.  Similarly, our own research in 
Georgia has shown that the higher the degree of the teacher, the better 
the outcomes of the children to the extent that we have even raised our credential level to a minimum of an associate's degree.

Mrs. Musgrave.  Thank you.

Dr. Lawrence.  We did that, if I may add a comment, in response to the 
reauthorization of Head Start in 1998.  When the decision to reauthorize 
was made, we then made that policy decision in our State.  So our efforts 
have closely paralleled in the area of professional development, as Ms. Wilkins has so eloquently spoken about.  Our efforts in the State, for our 
State-funded Pre-K, have paralleled those of Head Start.  This is another example we wish to leave with this Committee on how we tried to make these 
two programs work together in an appropriate way.

Mrs. Musgrave.  Thank you.

	Thank you, Mr. Chairman.  I yield back.

Mr. Osborne.	Thank you, Mrs. Musgrave.  Ms. Majette.

Ms. Majette.  Thank you, Mr. Chairman.

	Good morning to all the panelists, and thank you for all of the hard work that you do in order to improve the lives of our children here in this country; And I have to say a particular thank you, it is really good to see Dr. Lawrence and Ms. Haley here; I want to thank you for the work that 
you do, and I hope you will continue to do in the State of Georgia.

	I would like to follow up on what Dr. Lawrence and Ms. Haley were 
just talking about with respect to the issue of having more qualified 
teachers or better qualified teachers at the preschool level, because I 
think that that is a very important thing, but if you look at the funding stream and look at the funding that is available and the wages and salaries that are being paid at this point, we are going to really have to make some significant increases in order to get the caliber of teachers that we want 
and that we need and that, obviously, will really help to move our students along.  So my comment is that if we are going to make these changes and make these requirements, then we are going to have to be committed, and the administration is going to have to be committed to directing the funding, in order to meet these needs.  Clearly, at this point, we have States that are 
struggling with finding enough teachers to meet the needs, making sure that we have that, and, of course, you are aware that we have that challenge in Georgia.  And so, I guess, to put it in the form of a question, what kind of assurances can we get that the administration will put the full force of 
its ability to move us in that direction?  Is there anything that either or any of you can say to speak to that particular issue?

Ms. Wilkins.	I do not think any of us here are in a position to speak 
on behalf of the Administration.  It is absolutely critical to understand 
that if we hope for Head Start to do a better job of closing the school readiness gap between the low-income kids it serves and other kids, we have 
to provide Head Start with well-qualified teachers and provide them with 
ongoing training and education.

	If the Administration says, as it said in January, that its goal is 
to improve the literacy skills of children attending Head Start, it has to 
put its money where its mouth is and fund teachers, who research shows, are able to not only help kids with their academic skills, but are better able to 
address the social and emotional needs of kids. 

Dr. Lawrence.  I would like to add to that in some ways, it is a double-
edge sword.  You alluded to this.  As we continue to increase, and rightly 
so, standards for teachers in early care and education programs, we are looking at a dwindling pool of potential applicants and persons who have 
been working in our programs.

	It is a dilemma in Georgia and I think in other States as well.  
That does not mean that we should not continue to do this.  What we are 
just beginning in Georgia, that other States have already undertaken, is 
the development of a committee to study birth through 5 year-old 
certification for early care and education teachers.  In our minds, that 
would raise the prestige of teaching position within early care and 
education programs, put it on the Professional Standards Commission salary scale, and it would become a professionalized position, which in turn would 
increase salaries.

	So we are doing the best we can in a very difficult environment.  Difficulty recruiting and retaining highly qualified teachers is a problem that has no easy solution, regardless of the State.

Ms. Majette.  Please continue if you would, Ms Haley.

Ms. Haley.  I think we also need to set our expectations.  We raised the bar beginning 3 years ago with 3 years' notice to no longer allow a CDA, child care development or CCP, child care professional, as a 
lead teacher credential.  It was tough, and we believed it would never 
happen.  We went from 650 CDAs last year to 4 this year.  And there was a 
lot of pain, a lot of groaning, and they said it could not be done, but we held the bar.  I think if we are going to have high expectations and high outcomes for our kids, we are going to have to hold high expectations 
for our teachers.

Ms. Majette.  But, under Title II, a State would be able to combine Head 
Start funds with funds for other early childhood programs.  If I am correct 
in understanding this, there is not any regard to the set-asides for training or any other purposes, and I see that as being a problem.  If the administration or the administration's proposal would depend on the individual 
States and the Governors making it a priority, I suspect that there will be this shell game that would be played, and there really is not anything that would be able to be used as a stick with regard to that.  

Ms. Wilkins.  Ms. Majette, my organization is recommending to increase 
the bar for States participating by requiring that only States that already have a BA requirement for their preschool teachers or, like Georgia, has an 
AA requirement and would be willing to move to a BA requirement on the same time line that has been established by this bill for overall Head Start 
be allowed to participate.

	You are right.  As currently drafted, Title II does not ensure that children in States participating would have access to the kind of teachers that we know matter.  We believe that participation in the demonstration project should be limited to States that have made a large financial commitment to Pre-K already, that have made a large commitment to 
high-quality staff, and that have made a commitment to Pre-Kindergarten standards along with their K-12 standards.

	We really think that if you are going to do this demonstration, you can only do it in those States that are appropriate partners for the Federal Government.  You know, not every State, very few States, as a matter of fact, are appropriate partners for the Federal Government in this enterprise.

	 We think it is important for this Committee to look at the criteria for States to enter into the partnership, because there are no guarantees 
that States who have not made a commitment to high-quality staff will do 
this unless the Committee sets a limit on it.

Ms. Lemke.  Could I just add one statement?  I certainly share your 
reservations in terms of how improved teacher qualifications would be 
funded.

	There is one other point I would like to make here, and that is that in the long run, the primary educator for the child are the parents.  That is one of the reasons that the parent component, the parent involvement piece, 
of Head Start is so critical.  Our teachers spend a lot of time with parents who do not have the books in their home, working on the family literacy 
component, working with them to design simple activities that they can use when they go places with their children.  For example, when a family goes 
to the grocery store, pointing out the names of a fruit can enhance the development of the child.

	Obviously, I do not mean to suggest any kind of substitute for very good education in the preschool program or Head Start Program, but I do want to emphasize in working with poor families, it is very important to work with the parents so they can work with the kids.  Thank you.

Ms. Majette.  Thank you.  I agree with you.

Chairman Castle.  Thank you.
Mrs. Biggert .

Mrs. Biggert.  Thank you, Mr. Chairman.  And thank you, all of you, for 
being here.

	I have a question, and I hope I do not have difficulty getting it across, but having worked in a Head Start Program a very long time ago, the first year it opened, as a volunteer, and then visiting Head Start programs this year and seeing how they have grown, and I thought it was good and full 
of potential.   How it has been developed, the quality of teachers, the 
parent program, the ability for the children to have access to health care, the vision and hearing screenings, things that a lot of children in low-
income families do not have, I think it is that has worked.  I am from Illinois, and I think that we have had a lot of interaction between the 
Head Start and the school systems themselves, and it has been beneficial.

	My concern is that whenever you talk about a program that seems to 
be to getting a lot bigger.   It would be nice if 60 percent of low-income kids were in Head Start in the bringing them into a program where they might not have those services that are provided now. Will this dilute the 
Head Start Program?

	The other thing that seems to have occurred, in discussion with others, are opponents that criticize the academics of Head Start even as 
the socialization, the school readiness, the parent involvement and all of those programs are doing well. There still seems to be some question about 
the academics in the Head Start Program.  I would just like to know a little bit how you foresee if H.R. 2210 will affect the programs that are in existence.

Dr. Lawrence.  I want to reconfirm what Ms. Wilkins said about the 
necessity of having very specific and strict criteria relative to States' participation in this demonstration program.  I think that is going to be 
key, the stricter the better.

	Secondly, as Ms. Wilkins mentioned, professional standards for teachers, how you are going to manage the funds, whatever criteria are necessary, they must be extremely strictly spelled out and very rigorous.  
In my estimation, you really want to exclude programs to the extent 
possible, exclude States to the extent possible, rather than include States 
in order to determine whether this demonstration can be a success.

	Thirdly, I think the development of the State plan is going to be tremendously important, and I would recommend and feel more comfortable with some continued discussion about what that process looks like.  The critical factors that are necessary to ensure that the development of a 
State plan is appropriate for both Head Start and the State.

	I also believe that the spirit of collaboration, coordination, and cooperation is vital to the continued success of the Head Start Programs.  I believe if you do that, develop strict criteria, and be more specific in the steps that are necessary to develop the State plan, you will have gone a 
long way in ensuring the integrity of the Head Start Program.

	What will not happen, hopefully, is your concern that the program 
gets lost in the shuffle of a watered-down State Pre-K program or something like that, losing the effectiveness and the impact, the character and the integrity of Head Start.

	That would be my recommendations to help address your concerns about the watering down of Head Start or the loss of the Head Start Program.

Ms. Lemke.  Well, I think the performance standards that are in existence 
that contain over 200 indicators, which address every aspect of the Head Start Program, guarantee 
the quality of the program.  There is no reference to those in Title II.

Mrs. Biggert.  Thank you.

Ms. Wilkins.  I guess I would just add to what the others have said, that in 
addition to having high standards for programs that enter, ensuring that 
there is a plan process that makes sense and ensures cooperation at the State level will be beneficial.

	The other thing that needs to be done in this bill is the Secretary really does need to have some discretion and authority in granting applications.  The way the language is currently drafted, any State that applies receives a grant.  The Secretary should have the discretion to look 
at the various plans and determine what looks good and what does not.  He should have the advice of outside experts who understand child development, who understand program administration, and who understand the evaluation process.

	So, in addition to the views brought forth by the other panelists 
have said, I think that the Secretary really does need to have some authority to say yea or nay on the applications.

Mrs. Biggert.  And there would be no problem with funding?

Ms. Wilkins.  Well, there is always a problem with funding.

Mrs. Biggert.  Thank you, Mr. Chairman.

Chairman Castle.  Thank you.  Mr. Grijalva .


Mr. Grijalva.  Thank you, Mr. Chairman.  Just a couple of quick 
questions.

Dr. Lawrence, if I may, you mentioned in your presentation the advantage 
in Georgia, and that being the consistent funding stream via the lottery, 
and that funds pre-K and also higher education, if I am not mistaken.

Dr. Lawrence.  That is correct.  The Hope Scholarship Program.

Mr. Grijalva.  Let us hope it never comes to pass, but let us say that 
there is a loss of interest in the lottery in Georgia, and that money goes down.  Under current law, under current Head Start law, the shortfall 
funding in your pre-K program, you could not draw upon the Head Start 
funding, correct?

Dr. Lawrence.  No, sir.

Mr. Grijalva.  Under title II would that be a possibility then, to combine 
those two funds under one, as presented now, as what we have before us today?  If it would become a State_Georgia opted in, became a State demonstration project or a block grant project, whatever you want to call it, those funds would then be mingled together, and then your State pre-K could then draw 
upon the Head Start allocation under what we have before us today?

Dr. Lawrence.  Well, in all honesty we have not thought through that 
issue.  Let me try to step carefully through your question.

	We have not experienced a loss of revenue relative to our lottery funding, in the past year or so, two of our neighboring States have passed lotteries.  They are not fully implemented yet, so we expect, over the 
course of time, that Georgia's growth in lottery revenues will at least slow down.

Mr. Grijalva.  But the possibility exists that you could use Federal Head 
Start money under what we are presented with today, funds to help pay for 
the pre-K lottery program?

Mr. Lawrence.  We would not do that, and it would not be part of the State plan.  It is not part of our approach to the State Demonstration.  So while that may be a possibility, it is extremely unlikely.

Mr. Grijalva.  Well, pardon the hypothetical.

Dr. Lawrence.  Well, even if it were hypothetical, I would tell you in all 
honesty that we would not combine the two funds.

Mr. Grijalva.  On another issue, if I may, Dr. Lawrence, that has to do 
with 19 percent of the kids that_children that happen to come from farm 
worker and migrant families are served now by Head Start.  I understand that is still in a separate category.  Nevertheless in your State alone there has been a 93 percent increase in the Hispanic population from 1990 to 1998, and issues of children whose primary language is other than English, and issues 
of addressing those migrant programs, even as a separate category.  I think there is in the act, in what we are seeing before_the singular lack of attention and focus on that primary language issue, which I think this bill needs to strengthen as it goes along.  But how would you deal with that 
question in terms of that 19 percent of migrant children, and you have a lot of migrant children in your State, being people we are serving, and almost 
80 percent are still not being addressed on that.  Any response to that?

Dr. Lawrence.  Let me ask Ms. Haley to respond.

Ms. Haley.  Georgia's Pre-K program currently serves 40 percent low-
income children receiving some sort of public assistance, showing we are a universal program.  

	We currently do not have that information.  We have a new computer system, and next year we will be able to tell you English as a second language.  We do not collect that information now.  I do think our very 
strong early literacy program does a lot to deal with the children.  We 
still have issues with parents, but we counter with a strong parent 
component that deals with those parents.  Usually the kids are not the problem.  The kids are going to learn English quickly.  It is communicating with the parents.  So we are addressing that in Pre-K.  I do not see us 
taking that away.

Mr. Grijalva.  I don't mean to focus on your program.  Nationwide that 
is an absence of attention, particularly migrant and seasonal workers, and 
a real focus on the primary language other than English, period.  But, if I may, the_Ms. Lemke, just_and this is my reading of it.

	As I see what is before us, Title II seems to negate the efforts of improvement that are in Title I.  Am I misreading that?

Ms. Lemke.  That is my reading also.  My understanding is Title I contains 
goals applied to all programs, but that if States chose to opt out and apply for Head Start funding, then Title I is no longer applicable.

Mr. Grijalva.  Thank you.  I don't have any further questions, just a 
comment, if I may, Mr. Chairman.

	When we were doing IDEA, it was the opinion_the question came up 
of mandatory funding for special ed kids.  It was the committee's feeling that_at that point from the Chairman that we shouldn't do mandatory funding, because we need to continue to have congressional oversight over these very vulnerable kids in this country, poor kids under Head Start.

	We are giving up our oversight in title II to a very vulnerable 
group of kids, poor children whose parents didn't even get a tax cut this year.  So I mention that inconsistency.  Thank you.

Chairman Castle.  Mr. Van Hollen.

Mr. Van Hollen.  Thank you, Mr. Chairman.  I also want to welcome 
all of the witnesses.  I thank you for your testimony.

Dr. Lawrence, I want to commend you also on the progress you have made in 
the State of Georgia, and I took to heart your comment that looking around 
at the other States, and I share your concern, you do worry whether or not 
the level of quality that you have in the Georgia program could be 
replicated in the other States.

	You have further said that you thought in order to protect against 
a loss of quality in the program, you would want very strict criteria and specific criteria, and really design a program so it is very difficult to 
get into, rather than easy to get into.

	And my question is would one way to do that, since we do have 
these performance standards, very clear performance standards, that Ms. 
Lemke referred to already outlined as part of the Federal Head Start 
Program, why not require, at least as a minimum, I mean, the States to 
meet these performance standards as a condition of receiving any kind of 
block grant money?

Dr. Lawrence.  I think a minimum performance standard is an excellent 
idea.  I believe that has been the strength of the Head Start Program from 
its inception, the very foundation that has made it so successful.  I think 
to alleviate and allay concerns about the watering down of Head Start, 
which are real, I feel requiring among those criteria for State 
participation, Head Start performance standards is an excellent idea.

Mr. Van Hollen.  My next question is if we are going do that, in other 
words, if we are going to essentially say, as a condition of receiving these funds, you really have to preserve all of the quality and other standards 
that exist in the Head Start Program, why not keep the Head Start Program 
the way it is and allow States that want to go farther to work, you know, 
in some ways with them, to do additional things?  But why_why adopt title 
II?  Why not keep it at title I with the changes that have been proposed, 
and then, you know, work with States?  States already have a fair amount of authority to work.  Why not take that approach?

Dr. Lawrence.  Well, I think the Head Start community has done that 
through the State collaboration projects over the past 10 or so years.  I believe they have been very instrumental in most States by helping design 
and implement a State system of early care and education that includes 
Head Start programs.  I feel there has been good progress made in that 
regard.  In Georgia, we feel like that under the certain conditions that 
we have spoken about in Title II, and under certain criteria, that the opportunity to further design and implement a more efficient, 
cost-effective system of early care and education is the next step for us 
in the State of Georgia.

	We enjoy a really excellent relationship with Head Start.  We have moved in tandem over these past 10 years toward high-quality programs.  I think that a demonstration, the opportunity to conduct a demonstration 
under the conditions that we have said, would allow certain States to 
move a step ahead in crafting a seamless system of early care and 
education.

Mr. Van Hollen.  My time is going to run out.  So if I can ask you, 
what are the impediments in the existing Head Start law to Georgia doing 
what it wants to do, because if there are impediments, some of us would 
rather take the bullet approach and address those issues rather than have 
the wholesale changes that some of us are concerned with the vague 
language in title II that would open up there.

Dr. Lawrence.  Well, I do not want to use the word "impediment," as I 
am careful in my choice of words.  But one of the strengths of Head Start Program is its local autonomy, and in some instances that very strength becomes an impediment to collaboration and coordination, because local programs do not have to do that if they chose not to.

	In our case there are certain programs in our State that for certain reasons, particular reasons, have isolated themselves, and they are not involved in communitywide planning and coordination of services.  I believe the strength of Head Start programs is its local autonomy, and that is a 
good thing, but when you are designing a State system in which everybody in 
a particular way moves forward in unison under a set of standards in an organized system, you can make an argument, if you would like to, that everybody needs to move together toward that objective.  In this case you 
do not have to do that under the current design of Head Start.  You do not have to play ball with the Georgia Pre-K Program if you do not want to.

Mr. Van Hollen.  Thank you.

Chairman Castle.  Thank you, Mr. Van Hollen.
Mr. Davis.

Mr. Davis of Illinois.  Thank you very much, 
Mr. Chairman.  And I, too, want to thank all of the witnesses for coming to testify to share their experiences with us.

	It seems to me that Head Start has been heralded as one of the most effective of all of the programs that grew out of the civil rights movement, grew out of the war on poverty, and part of the effectiveness has come as 
a result of their comprehensiveness; that is, as people got involved, as 
parents got involved, as communities got involved, as people got involved, they really liked what they were doing.  I am saying they liked the idea of interacting around the development of their children.

	I wouldn't consider myself any kind of an expert, but I have spent 
a lot of time around these kind of programs and this kind of activity, and 
it seems to me that people really look forward to whatever role, whatever part, whatever their niche was in them, and that then translated into 
children being enthused, learning, being engaged.  I think the record sort 
of indicates much of that.

	My question is if each one of us, just theoretically, was the most powerful, most influential person in the whole United States of America 
that could have some influence and impact on improving the program, what 
would you do?  I mean, given the lay of the land, unemployment, problems 
with finding a job, job loss, money going every direction, war, increases 
in poverty, 2.7 million people lost their jobs in the last couple of years, 
I mean, what would you do to improve the program if you just had the power 
and ability to do that?

Ms. Lemke.  I would make sure that all children were eligible, that the 
funding was increased so that every eligible Head Start child could actually take advantage of the program.  We are only serving a portion of the poor children who would be eligible if there was enough funding.  I believe so strongly in this program that that would be my first priority.

Mr. Davis of Illinois.  Thank you.
 Ms. Haley .


Ms. Haley.  I agree with that.  I would also make sure that there were 
blended programs so that children from poor backgrounds would be able to be educated along with children who were not from those backgrounds.  And pay 
the teachers.  I would pay the teachers.

Dr. Lawrence.  I think the intervention should occur much earlier in the 
life of a child and family.  There is strong support in the Head Start community; it is my understanding that Head Start Programs be allowed to 
serve children birth through 5.  Also, design the model for the Head Start Programs that is most appropriate for their community.  I think that is 
a wise idea.

	I think it is presumptuous of us to think that an intervention for 
1 year at the age of 4 is going to have a lifetime of effect of a child's life.  I think the earlier that we can intervene in the lives of particularly at-risk children and families with comprehensive services who sustain those 
services over multiple years, we are going to begin to see stronger benefits to the programs.  And those benefits, I believe, would be sustained over a longer period of time.

Mr. Davis of Illinois.  Thank you.

Ms. Wilkins.  Since everybody who has spoke before me has made the 
program bigger and better, I would say what we need to do is get Head Start teachers in the programs with more formal, education and then pay them for that education.  If you did all of the things all of the way up the line, 
you would have a pretty good program.

Mr. Davis of Illinois.  Let me thank all of you, because I think if the committee listens to what you have said, you are saying we need to increase funding; make sure that the programs are blended so that children have an opportunity to interact with others whose lives may be a little bit different than theirs so that they learn how to live in this great big America; and we need to start earlier and begin at birth through 5; and make sure that our teachers are well trained and really know what they are doing, and that we have enough money to pay them.

	That sounds like a real prescription for success.  I hope that maybe the committee will follow that, Mr. Chairman.  And I thank you very much.

Chairman Castle.  Thank you, Mr. Davis.
Mrs. Davis.

Mrs. Davis of California.  Thank you.  I appreciate your responses.  I think at the last hearing that we had, I know 
I asked the question as well about how can we make this better?  What is missing?  Is there something missing institutionally?  Is there something missing in the training?  And people did respond:  We need to start much earlier.  And I think that focus on Even Start, on Early Start, how we 
blend those.

	And I guess part of my question then is are we addressing that in 
this legislation?  How does title II, if we put that into the new legislation reauthorization, does that get us there any faster?  Slower?

	And I think my other question, too, if we are to start earlier, 
does that mean new funding, or does that necessarily mean a different use 
of the funding that we already have?  The folks who were here before have suggested that it doesn't necessarily need new funding.  I was having some 
difficulty trying to see how, in fact, we could do it without additional funding.  Could you speak to that?

Dr. Lawrence.  I will jump in, because this is a very good question.  Some 
of your question we have really not worked out the details in Georgia.  All 
of this is relatively new, so some of the level of detail that you are asking for we are not prepared to answer yet in Georgia.  However, I will say that 
in what we think and how we look at this possibility of better coordination 
of our Head Start Program with our Pre-K Program, we see an opportunity to 
build on the strengths of both programs.

	In some cases in our State currently, Pre-K serves only 4-year-old children.  Head Start serves 3-, 4- and some 5-year-old children.  In some instances there is competition for the 4-year-old child where, for whatever reason, Head Start Program is in competition with the 4-year-old Pre-K 
Program for that child.  We see an opportunity, perhaps, to better 
coordinate that, build on the strengths of Head Start, intervene earlier 
in the life of a child, using Head Start funds.

Mrs. Davis of California.  I guess the question would be does that take away from the maintenance of effort for 
those children who are in the Head Start Program today?  Because, what I 
think we are really striving for here is not to take away from the 
existing program in its numbers and in its quality, and certainly in the training of teachers, we need to make that all better.  We need to expand that.  How do we get to the earlier piece, because that is so critical and 
we need to start planning for that?

Dr. Lawrence.  We have not developed our plan.  So we do not have the 
level of detail that you are asking for.  I will go back to what I said earlier in my opening remarks.  We are committed to maintenance of effort.  
We are not going to diminish or reduce the number of children and families that are currently being served by Head Start in our State.

	How we design that program model I cannot really tell you, because 
we have not discussed it in detail, but we are committed not to reducing 
the maintenance of effort and building on the strengths of both programs in our State.  That is what I am speaking of.

Ms. Lemke.  We have an early Head Start Program, and we operate it in 
partnership with a local school teenage mother program. This is very effective, because it is so important to get to those teenage mothers, as 
well as the infants, early.

	I am concerned about the future of Early Head Start, because I think it is one of the best additions to the Head Start Program over the past few years.  The proposed legislation is unclear to me because it sounds as 
though Early Head Start could stay with the Federal Government or could 
go to the States.  What we are really excited about in our program is the continuity of the possibility of working with the child from infant stage through age 4 in Head Start.

	So I do not have an answer to your question.

Mrs. Davis of California.  Would that coordination be essential if, in looking at title II, that that would be another criteria that really ought 
to be there?

Ms. Lemke.  Yes.

Ms. Wilkins.  Can I pull back?  Everyone on this panel has talked about 
the need to get to full funding for Head Start to serve the 3- and 4- year old.  But even if we got the full funding for Head Start to serve the 3- and 4- year old, we would only be serving children below 100 percent of the poverty level.

	There are another 1.5 million 3- and 4-year-olds in this country 
who are so poor by the time they get to kindergarten, the Federal Government will help pay for their lunches, yet denying them from Head Start.  Through Early Head Start we are only serving a tiny percentage of the infants and toddlers, so the need for high-quality early childhood programs is just enormous.

	As this Committee and Congress moves forward with this
reauthorization, we believe it is necessary to think of ways to leverage greater State investment here.  We are never going to serve all of the kids that we need to serve by only using the Federal level.  While considering 
this legislation, this Committee needs to figure out how to get the States more involved with funding and how to lift the quality of the State 
programs.  This is necessary to offer kids who qualify for the free and reduced price lunches.  But there needs more money in the pot.

Mrs. Davis of California.  Thank you.

	If I may, Mr. Chairman, I know when I have met with Head Start 
people in the San Diego community, they are very frustrated with that as 
well, because they know that there are many families who are just barely 
there that could be served and would be well served, and our entire 
system would be well served if we could do that.  Thank you.

Chairman Castle.  Thank you, Mrs. Davis.

Mr. Payne  has joined us.  He is a member of the Full Committee.  He is not a member of the Subcommittee.  So we have gotten a waiver from the Speaker of the House of Representatives to allow him to 
ask questions, as confirmed by the President of the United 
States.

	With that, we yield 5 minutes to Mr. Payne.

Mr. Payne.  Thank you very much.  Therefore, I am going 
to ask nice questions since I am given this opportunity.  But I am certainly sorry that I missed the testimony.

	But Head Start in general is a program that, you know, is being debated here.  Many of us really feel that the program has been so good 
over the years, we really hate to see the tampering with it, and we hope 
that when the new proposals come up for the switch, and I understand it is 
going from the Health and Human Services to the Department of Education, 
that many of the amenities that Head Start has, dealing with nutrition, dealing with the total family, dealing with adult literacy, hopefully they 
can still be a part of the program.

	I have a concern.  When Governors get money through block grants, every State is having financial problems, and it seems to me that there may 
be an opportunity for some Governors, even my own, who is a good friend of mine, but I am worrying, to take the funds and offset some of the very, 
very dire economic problems that are being confronted by States and 
overall, I think, diluting the program.  That is my concern, about a 
dilution of the program.  And I just wondered, the high standards is 
something that we pride Head Start on, and I am wondering, what do you 
think about the block granting?  I guess Georgia is kind of unique, but 
in general what would happen?  Do you feel that the standards could remain 
as high, or do you think that it is going to be an opportunity to 
try to do much more with the same amount, which is_really in the long run perhaps might not give the same quality that we currently have?

Ms. Lemke.  Well, the proposed legislation does not include performance 
standards, and my understanding is that there are only three States that 
have standards for their preschool that are equal in their stringency to 
the Head Start Program.  So I would agree with your fears.

Mr. Payne.  Okay.

Ms. Wilkins.  I was just going to add that your mind should be a little at 
ease about your home State of New Jersey.  While admittedly New Jersey is having a very, very tough economic time this year, Governor McGreevey asked for and got a $28 million increase for the New Jersey Pre-K Program.  The 
New Jersey investment in Pre-K is 250 times what the Federal investment in Head Start is.  So, in fact, more poor kids because of the Abbott decision 
in New Jersey are getting pre-K, through the Abbott districts, than are through Head Start.

	And one of the nice collaborative things that have happened in New Jersey is that Abbott has higher educational requirements for its Pre-K teachers than New Jersey's Head Start does.  Many Head Start teachers have taken advantage of the scholarships that have been offered through Abbott 
and gone on to get their BA degrees.

	Abbott is an example and New Jersey is an example of a State that 
has a solid commitment to Pre-K that is coordinated well with Head Start; 
they have used State funds to improve the quality of instructors in the 
Head Start Program.

Mr. Payne.  Right.  Well, let me just say, as you know, it took 40 years 
for the Abbott case to work its way through.  New Jersey has a unique State constitution that was written 3- or 400 years ago that said that every 
child is entitled to a thorough and efficient education, and because of the inadequacies of the funding, for example, Camden was funded at about 50 percent of what Milburn was funded at years ago, and so the Abbott 
decision and the Cahill case said that you had to have equal funding.

	But my fears are still well founded, because you may know that the Governor has asked the Supreme Court to relieve the State from Abbott, and 
he has asked that we use all sort of deliberate speed in moving it because of the funding problems.  So my fears are well founded, because they are in 
court asking the State supreme court to relieve them of the Abbott decision.  The funding for schools has been done through a bonding issue under the 
former Governor, but the other parts of Abbott are now being asked for 
relief for the State to reduce what the Court said it should do.  So 
we are very concerned.

	But I just commend Georgia on the Hope Scholarship, the whole kind 
of thing, although I do understand with the Hope Scholarship, which is not 
in your area, but many Georgia wealthy persons or well-off people who might have gone out of State are going to the top Georgia universities.  Therefore, many people are benefiting from the Hope Scholarship, which in the long 
run is really taking away from other students by virtue of the fact that 
you must maintain a B average in the university, and many students from 
poorer communities might get in, but are unable to maintain that.  But 
others who would maybe go to Yale or Harvard are going to Georgia Tech 
and others.  And so there is a reverse effect on the Hope Scholarship 
Program.  I hope they can amend that.

Chairman Castle.  Thank you, Mr. Payne.

	We have another participant.  Mr. Murphy of Pennsylvania is here.  
If it took the Speaker and the President to have Mr. Payne testify, Mr. 
Murphy is not even a member of the Committee, so it will take an act of God, but we have had it granted.  So, Mr. Murphy, we yield 5 minutes.

Mr. Murphy.  Given that introduction, Mr. Chairman, I should thank you and God then for allowing me this.

	But it is an honor to be here, and I appreciate this.  For the 
members of the Committee, my career is as a child psychologist, and I have worked extensively in the areas of early childhood development over the 
years, particularly in the aspects of cognitive development in young 
children, although many aspects of Head Start are best seen as not only cognitive when we are dealing with impoverished children who really 
benefit socially and emotionally, as well as their families.  Nonetheless, 
I would like to focus a couple of my questions on some of the cognitive experiences these children have.

	As you know, early childhood education has a tremendous impact upon neurological development in young children.  Effects are long lasting and 
can be measured by a number of tools.  Certainly we know also their vocabulary, their early reading skills are also tremendously affected.  
And although some research has, I think oftentimes skewed research or not 
very well done research has suggested that the gains do not last forever.  Nonetheless, I think they are substantial gains.

	But I want to talk about how we measure that not on the bailiwick 
of this bill, it probably being more regulatory.  Ms. Wilkins or whoever 
might want to respond to this, what do you see as the more effective ways 
that States and local programs can assess development in these children as 
pretest, post-test so that we can clearly monitor not only what their needs are or how they are doing long term?

	I know some Head Starts use screening tests such as the Denver Developmental Screening Test, which in my experience is not very valuable 
for such children in terms of identifying some of their needs.  I wonder if you have any other thoughts on what can and should be done to give people latitude to find good measures and how we can measure that.

Ms. Wilkins.  I am not an assessment expert, so I am going to defer to Dr. 
Lawrence and Ms. Haley on this one.

Dr. Lawrence.  Well, good question.  To the best of my ability, I will 
answer your question by first saying that I think it is important, when talking about the effects of early childhood programs, to first determine 
what the purpose of the program is.  As you well know, the purpose of the program will then guide what instruments are used to measure child outcomes.  For example, if a program's purpose is to promote health, social, emotional competence of young children, then measuring the effectiveness of the program by using a battery of cognitive instruments is not necessarily that appropriate.

	Even though we are still struggling in our State with our Pre-K program and certainly in Head Start nationally, we need to define exactly 
what we expect children to learn and accomplish and look like when they 
leave our programs.

	In Georgia what we have done is develop our definition of school readiness, because we believe that the purpose of our Pre-K Program, and 
the purpose of Head Start for that matter, at least we believe that in our State, is to prepare children with the necessary skills to be successful as 
they enter school.  If, in fact, by their participation in the Georgia Pre-K Program and their participation in Head Start, that their test scores, 
reading scores increase in the third grade, so be it. But that is not what 
we are focused on.

	So given that, and I am not dodging your question, I think you have asked specifically what cognitive measures should be used, and I really am 
not at liberty to or really can speak to that eloquently.  But I think that 
a battery of tests that measures the full range of development of children 
in all domains, the motor, language, social and emotional are needed.  Being 
a child psychologist, I am sure you understand the importance of social and emotional development relative to cognitive development.  The two are intertwined, and directly correlate with a child's performance in school.  
If the purpose of the program is to enhance all developmental domains of 
young children in an early intervention program, then a battery of 
instruments should be selected that appropriately measure all of those 
domains and do not necessarily focus in on cognitive development.

Ms. Haley.  All of that being said, it should also be noted that young children make very poor test subjects.  Children do not understand prospects testing.  The skill they do very well today may not be there tomorrow.

Mr. Murphy.  Well, that is why they need good psychologists.

Ms. Haley.  Okay.  We need a lot more money than we are planning on getting here.  What they have today, what they know today, they are not going to 
have or know tomorrow.  They are up and down.  They do not understand how important this is.  We have to be very cautious when we look at individual testing of children.

Mr. Murphy.  Mr. Chairman, let me close by saying I applaud the 
Committee and the President for taking such an energetic lead on the Head Start Program.  I know as one reviews research over time, one prevalent question that deals with young children how do you assess what can be 
measured with reliability and validity.  Often these are glossed over with 
cultural differences in terms of what the family's exposure has been to the child in terms of those things, are probably many of the factors involved 
when one is trying to predict outcome or evaluate outcome over the long run.

	Nonetheless, certainly I hope that the regulatory issues and other information are considered by this Committee are able to provide us with 
what we need because I believe the data is there.  Sometimes it is a matter 
of the government making sure the right foundation is set to find the 
information, I have certainly seen time and time again, as I am sure you 
have, the value of early childhood education is almost immeasurable at 
times, but clearly there.

	I thank the Committee for allowing me to sit up here and join you.  Thank you.

Chairman Castle.  I also recognize that Mr. Mica of Florida has joined us, and we appreciate that also.

	Before we proceed, I believe that the order of business will be as follows.  I have not asked my questions, so I am going to ask a round of questions, and then we will have brief closings.  We are not going to have 
a second round of questioning due to time constraints, the extra witnesses 
we have had today, and the thoroughness of testimonies presented by those witnesses.

	I would like to make a preliminary statement before I ask questions about where we are legislatively on this.  We do intend to move forward with this legislation.  We do intend to go through Subcommittee and Full Committee and probably the floor of the House of Representatives, all of which can happen in fairly rapid order.

	This legislation, as a lot of legislation in this Committee, is subject to change.  I interpret this as improvement, based on what we hear 
by witnesses and what we learn.  So we could have substitutes and rewrites 
of this as we go forward with the actual markup, and then taking it to the 
floor of the House of Representatives.

	If we took a vote on this, I think we would have pretty much yes 
votes for the changes in Title I, and more no votes than yes or roughly 
even on the Title II, which covers the coordination with the States, which 
has been really, the essence of this hearing today.

	I would like to explain my own views on this.  I would like to 
clarify that changing departments.  I believe three Presidents have 
suggested changing from Health and Human Services to Education.  This has never happened, and it is not in our legislation.

	The component about moving this to the States and the coordination with the States, similar to what we have heard testified by the witnesses 
from Georgia, is in the legislation.  We clearly are going to look at some 
of that language.  As one who had an opportunity for 8 wonderful years to be 
Governor of my little State of Delaware, I feel strongly about the issue.

	I feel strongly that we can do even more to help children.  I was 
very involved in the First 60 Months Program; a program similar to those you have spoken about today, one focused on coordinating with kids.

	I think Head Start is a wonderful program.  I would not denigrate it in any way.  But I do look at charts, which unfortunately you cannot see and maybe that is fortunate for me.  These are charts from 1997 and 2000 and I would like to have them prepared a little bit differently for the future.  They are responsible for showing knowledge and skill areas for these young children, looking at children entering and leaving Head Start.  The average 
in the country is the 50th percentile, the average in Head Start in vocabulary, for example, was 16 percent when entering and 23 percent when losing.  Letter recognition actually went down from 27 to 25 percent; early writing went from 16 to 23, and early mathematics from 17 to 19 percent.

	What is unfair is the lack of precluding statistics, showing where these kids would be without Head Start.  That is, those kids who are eligible for Head Start, but are not in this.  So I think the statistics would be a 
lot lower.

	I think that Head Start does many wonderful things.  The question 
is could Head Start do even more?  That is what some of us are reaching for.  Could we do more with Head Start than we are doing presently, without being remotely critical of what they are doing now?

	Since Head Start began in 1965, and since then we have added Early Head Start.  There are State Head Start programs under a variety of names 
out there, which, in States who are willing to step forward, do fund all of those kids under 100 percent of poverty who are not funded by the Federal Government.  There is a daycare program.  There are Pre-K Programs.  We 
heard discussion of what has happened in New Jersey with extensive Pre-K Programs.  There is Early Reading First.  There are probably 10 other programs, as well as nutrition programs, health programs, and a variety 
of other programs that have gone into place in order to help kids.  Frankly, 
I think these programs are very positive and very wonderful.

	Head Start does stand out as a program that is different, which is 
not in the coordination section of all of the other programs in the State, because it is a Federal program with the money going directly to the recipients and is handled in that way.  As a result, you cannot get the 
full coordination.  There are certain hindrances or blocks preventing that.

	I think that language should be strong in Title II, maybe even stronger than it is.  I am more than willing to look at that.  But the 
concept of doing this should not be taken as a threat or should not be taken as something which is going to be necessarily detrimental to Head Start.  It is an effort to improve Head Start, and I would hope we would all look at it from that point of view.

	It does not have to be block granting.  There can be block granting.  You can have maintenance of effort and you can have fences.  There are things you can do to prevent that.  It can indeed do what I think the program should do; that is, help children ages 3 and 4 all over this country.  So it is something that clearly we are interested in continuing to look at.  But we really appreciate the suggestions of all of you today in that area.

	Let me ask just a few questions, the first is just one I worry about sometimes.  We have billions of dollars that are going into this program and we are going to increase spending in our authorization.  The question asks 
is the money as efficiently expended, as it should be?  I do not know the answers, and you all are not financial experts, so maybe nobody here wants 
to take answer this.  But we spend some $6,500 per child in Head Start; we spend less than that in full education.  One could easily point out that a 
3- or 4-year-old takes more maintenance; you have to have more teachers, 
more people in the classroom to help the child.

	I am not an expert on the financing of Head Start.  Is there some central depository?  Is there some central review point?  Are you 
comfortable that Head Start is being run as efficiently as possible, not 
just your own Head Starts, but in a national sense?  Are we getting the full dollar to the children as best we can in this country?  Does anybody want to answer that?  If not, I can concoct other questions.

Ms. Lemke.  Well, I will try as a Head Start grantee.  First of all, I will 
certainly agree that there is always room for improvement.  I want to make that clear.

	In terms of the finances, I think it is an efficient use of moneys.  
I also think that a comprehensive program is never, in the short run, the cheapest way to go.  I think in the long run it is the cheapest, and I think that is at the heart of Head Start.

	So in terms of actual dollars spent, we are monitored very closely, both fiscally and programmatically.  It is very extensive, much more so than any of the other sources.

Chairman Castle.  Do you believe that all Head Starts are run fundamentally the same way with the same sort of administration, basically the same payment 
going to that administration, rent and upkeep, and then a payment for teachers?  Are any of them run very differently in terms of how they expend their dollars, to the best of your knowledge?

Ms. Lemke.  Maybe others can speak to this also.  I think there are definitely variations, but I do know that we all have to adhere to the performance standards.  So there may be variations in local designs, but I think the heart of every program is the same.

	I think quality is another issue.  My understanding is most programs have gotten quality marks, 85 percent or more.  But I think the heart of the program is the same.

Dr. Lawrence.  I would agree that there are variations among programs, but essentially the structure and the framework of all Head Start programs are very much the same.

	To your question about the efficiency of Head Start funds, I think that 15 years ago that was an important question to ask.  That is because there were very few States that were even involved in State-funded early childhood education programs, and if they were, they were minimal.  But in 
the last 10 or so years, you have seen an explosion across the country in States implementing preschool programs.  Of course, they vary widely in quality, content, and level of services.

	But what we have done in Georgia to address the issue of the 
efficient use of services is by innovative thinking.  Training is an example of where you can better maximize and coordinate dollars in our State, 
because our Pre-K teachers are getting the same training as our Head Start 
teachers.  So why should we use two pots of money to train two different 
sets of people when we can use one pot of money to train a larger number of people?  That is one way we have discovered.  We can more efficiently 
utilize Head Start dollars by wrapping our Pre-K dollars around Head 
Start.

	In my estimation, there are ways in certain States and environments where there can be a more efficient use of both pots of money, both State and Federal.  These are examples that we have used in Georgia to address your concern.

Chairman Castle.  Let me pose a question that is sort of a reverse of 
a question a Member of Congress asked me on the floor last night in the 
House of Representatives.  He asked how schools were going to compete if we make Head Start teachers have higher requirements, 2-and 4-year degrees?  I said I do not think that is the issue, rather how Head Start is going to compete.

	If you are now hiring individuals who cannot be hired in schools it will be no problem to find teachers.  But if suddenly we are mandating that have at least a 2-year degree, and pretty soon 50 percent of your teachers have to have a 4-year degree, how is Head Start going to compete?  That concerns me.  We are struggling now to serve all of the kids whom we believe should be served, and obviously more money is always an answer.  Even though this is an area practically endorsed by everyone, money is still an issue.  I have not heard Head Start providers or the Head Start Association or anyone oppose the higher requirements for individuals who are going to be teaching 
in Head Start.  But I am concerned that as you get to those economically competitively requirements, it is going to be more difficult for Head Start groups who are running the programs.  What is your thinking about 
alternative solutions other than just throwing more money at it?

	I have asked this same question at home, and part of the answer is that there are a lot of people who are so devoted to this, that is what 
they are going to do, period.  That is not everybody. I would be curious 
to get your take on this.

Ms. Wilkins.  There are several things that have to happen.  First we need 
to remember that 25 percent of the Head Start lead teachers also have BA degrees, so this isn't going from 0 to 50.

Chairman Castle.  We see 28 percent.
	
Ms. Wilkins.  So it is not a 0 to 50, rather we are already a little bit there.  Frankly, it is going to take more money for salaries, but those salaries need to be tied to formal education so that when someone gets 
their BA degree, you pay them more than when they had their AA degree.  
You do a step program.

	But there are other things that need to happen as well.  
Congressman Miller has a bill to provide loan forgiveness for individuals going into early childhood education to make this affordable for people.  
You guys need to do that.

	The other thing that needs to happen is while marking up Title II 
of the Higher Ed Act next week, you need to expand States' use of the Title 
II money not just to improve the preparation of K-12 teachers, but to 
improve the preparation of Pre-K teachers.

	Part of the answer to how to upgrade the skills of Head Start 
workers cannot entirely be done in Head Start.  As you talk about 
coordinating Head Start with State-funded programs, Federal programs need 
to be coordinated, all pulling in the same direction towards higher 
qualifications and higher salaries for staff in Head Start.  

Ms. Haley.  We have seen that happen in Pre-K.  Teachers who become 
certified and can work in the public system will go there because they have benefits.  For example, they have retirement that our private providers 
cannot offer. 

Chairman Castle.  My assumption is you are never going to close that gap entirely, but if you implement some of the things that as Ms. Wilkins suggested, we can close it enough to make it enticing enough to keep people 
in that profession. I think it is a coming trend that we need to keep an eye out for. My judgment is that part of this new authorization is going to 
make it through the legislative process and the pressure on Head Start is going to get even greater even it is today.

	My time is really up.  I want to ask a quick question and Ms. Lemke was the one who prompted this.  You indicated in your answer to one of the questions, I believe Mrs. Davis's question, the first priority should be to increase funding to allow for all eligible children to be served.  We do 
serve them all in Delaware because of what the State has done.  That is 
also true in several other States, obviously proving it is a State function.

	I am not going to comment on California right now.  I cannot say I 
am a huge fan of the California State Government, but that is a whole different story.  I think about 60 percent of eligible children are covered 
or go to Head Start, but in talking with others, I discovered a number 
of the people, for a variety of reasons, do not want to be in Head Start.  
For example, they may have a parent at home who does not want them there.  This leads me to admit that I am never sure exactly what we are discussing when we talk about covering everybody.  I would like to know who desires service.  Are you doing this from waiting lists?  I don't know if there are national statistics on this which are really accurate at this point.  We 
know how many of the eligible individuals from an income point of view in 
the demographic area are served, but we aren't sure about that next 
grouping.  I believe this group to be about 40 percent, and I would be interested to know how many of them are really in desire or need of the 
Head Start service.

	And I just want to ask about the backup that you see and if anyone 
has any knowledge of the statistics regarding that area?

Ms. Lemke.  Well, it depends on a given center and its geographic area and 
the demographics of the people in that community but we.

Chairman Castle.  That is a good point.  It is community by community, as well and State by State for all that matters.

Ms. Lemke.  Yes.  We operate 15 Head Start centers in the county of Sonoma, which is about a 500,000-person county.  At some of our centers we do have waiting lists; but not necessarily all of them.  Certainly there is a 
greater waiting list at the centers with a greater concentration of poor children.

Chairman Castle.  Ms. Wilkins, I understood your follow up on that there 
is a whole other level of children.  We may not be reaching the poverty 
level high enough that could be served, and I recognize that.  Obviously, there is the question of dollars in terms of what we can do but all these programs are by choice and there are many people who do choose to do 
otherwise, and sometimes those kids turn out extraordinarily well too.

Ms. Wilkins.  Dr. Lawrence and I were talking just before this hearing 
about the Georgia participation rate.  Georgia has a universal program that 
is available to any family regardless of income.  Dr. Lawrence, would you please talk about that?

Dr. Lawrence.  When we target 4-year-olds, between the Head Start program 
and our Pre-K Program, we estimate we serve around 85 percent of the 4-year-olds in our State.  But speaking to your point, we think that is a higher statistic because there are a certain number of 4-year-olds in our State 
that do not want Head Start or Pre-K.  And so it is hard to judge.  
I think the best indicators are waiting lists rather than total universe of children possibly served.  In our case, it is about 105,000 to 110,000 
4-year-olds.  It really depends, jointly, between our two programs and Head Start, leading us to estimate our service at 85 percent of the total 4-year-olds in Georgia.

Chairman Castle.  It is universal.  It is not income limited at all?

Dr. Lawrence.  It is not income limited.

Ms. Wilkins .	But if you have the Georgia program with about an 85 
percent uptake rate where people are sort of free to do what they want, 
where income and the cost of the program is not an issue, one can assume that lower-income families would exercise the same choices as all of the families in Georgia.  It just shows there is still a gap in Head Start between the 
60 percent we are serving and the 85 percent that take advantage of a universal program.

Chairman Castle.  Although some children may be in other programs, not in 
the 60 percent Head Start.

Ms. Wilkins. Correct.

Chairman Castle .	Because the 85 percent includes all of their 
programs, I believe.

Dr. Lawrence.  No.  Just in our case and just Pre-K and Head Start.  
There are children and family childcare programs in other settings as well.

Chairman Castle.  I am not really quibbling, I am just trying to make 
sure I am correct in my thinking.

Ms. Wilkins .	The 15 percent of 4-year-olds are either in family day 
care, home, or somewhere else, but 85 percent in Georgia are served by a combination of Head Start and the universal program.

Chairman Castle.  So if 60 percent is correct, in Head Start typically, 
then there is some percentage that are in Pre-K typically, and then that is 85.  My sense is it is probably not, that Georgia probably picks up another 
15 to 20 percent of kids who would not otherwise be served, as a guess.  
I am no expert on these things, but this would be my guess.

	Let us pause there.  I have gone over my time.  I want to turn to 
Ms. Woolsey for a closing statement that she wishes to make, but let me 
thank all of you.  This has been a very interesting and helpful panel.  
Some of the written information that you have submitted that we have not 
had a chance to ask questions about is also helpful.  So we will be looking 
at this.

Ms. Woolsey .

Ms. Woolsey.  Mr. Chairman, before I thank the panel and say nice things, 
I would like to enter something into the record.

Chairman Castle.  Do you want to say something mean first?

Ms. Woolsey.  No.  But I mean, it does have something to do with them, but 
it is more something I would like to have in the record.  And this is two letters, one from Windy Hill, the Department of the Health and Human Services, virtually scaring Head Start workers and staff into thinking they aren't supposed to comment on this issue, and then the other letter is a 
response from the national Head Start association in regard to this same communication.  I think it should be in our records, and I think today shows us that and it reconfirms that we should encourage openness from the Head Start programs and the Pre-K programs, so that we can get the best 
information from those on the ground that know the most.  So I would like 
that if you would put that in the record.

DOCUMENT SUBMITTED FOR THE RECORD BY RANKING MINORITY MEMBER LYNN 
WOOLSEY: LETTER WRITTEN BY WINDY HILL,  ASSOCIATE COMMISSIONER, HEAD 
START BUREAU, ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. 
DEPARTMENT OF HEALTH AND HUMAN SERVICES - SEE APPENDIX G

DOCUMENT SUBMITTED FOR THE RECORD BY RANKING MINORITY MEMBER LYNN 
WOOLSEY: RESPONSE WRITTEN BY SARAH GREENE, EXECUTIVE DIRECTOR, 
NATIONAL HEAD START ASSOCIATION; TO A LETTER WRITTEN BY WINDY HILL,  
ASSOCIATE COMMISSIONER, HEAD START BUREAU, ADMINISTRATION FOR 
CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES - 
SEE APPENDIX H

Chairman Castle.  Obviously, they will be admitted without objection.  I would personally object somewhat to the characterization of the letter from Windy Hill, having seen that letter, and I would also like to point out that before this committee, we do obviously encourage openness.

Ms. Woolsey.  I know we do.

Chairman Castle.  Without objection they are admitted.

Ms. Woolsey.  Thank you.

Then I would like to thank the witnesses.  This has been a great panel.  It 
is very obvious with your thoughtfulness and your remarks and your support 
of Head Start in general to the point of suggesting expanding it, fully funding Head Start, making sure that the teachers are totally educated and that we pay them and pay for making it possible for that education level.  
It is just clear that, you know, like, I know that children are the future 
of this country and they have to be the number one priority and there should be nothing else that we think of first before the children in this Nation and their education.

	I want to thank the Democrats on this subcommittee for being here and 100 percent showed up.  So many of you stayed.  Thank you very much.  It is obvious that this is extremely important to all of us and we thank you for your good information.  

Chairman Castle.  Thank you, Ms. Woolsey.  I would like to thank all the members that participated, Republicans and Democrats alike.  I would like to thank the witnesses for your work in preparing to be here and then getting here and being here.  I would also like to thank all the people who sat through this, even stood through it.  We do not have that happen very often.  We thank you for that, and we will continue to work on this.  As you know, it is a hot and heavy subject.  If you have information to get to us, please 
give it to us as soon as you can.  With that we stand adjourned.

	[Whereupon, at 12:10 p.m., the subcommittee was adjourned.]



APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN 
MICHAEL N. CASTLE, SUBCOMMITTEE ON EDUCATION REFORM, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES

<GRAPHICS NOT AVAILABLE>

APPENDIX B - DOCUMENT SUBMITTED FOR THE RECORD BY 
RANKING MINORITY MEMBER LYNN WOOLSEY: WRITTEN ARTICLE 
QUOTING DR. EDWARD ZIGLER

<GRAPHICS NOT AVAILABLE>


APPENDIX C - WRITTEN OPENING STATEMENT OF RANKING 
MINORITY MEMBER LYNN WOOLSEY, SUBCOMMITTEE ON 
EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES

<GRAPHICS NOT AVAILABLE>

APPENDIX D - WRITTEN STATEMENT OF MS. AMY WILKINS, 
EXECUTIVE DIRECTOR, TRUST FOR EARLY EDUCATION

<GRAPHICS NOT AVAILABLE>

APPENDIX E - WRITTEN STATEMENT OF DR. ROBERT LAWRENCE, 
ASSISTANT DIRECTOR OF COLLABORATIVE SERVICES, DIRECTOR 
OF HEAD START STATE COLLABORATION PROJECT, GEORGIA 
OFFICE OF SCHOOL READINESS

<GRAPHICS NOT AVAILABLE>

APPENDIX F - WRITTEN STATEMENT OF HELGA LEMKE, EXECUTIVE 
DIRECTOR, COMMUNITY ACTION PARTNERSHIP OF SONOMA 
COUNTY, CALIFORNIA

<GRAPHICS NOT AVAILABLE>

APPENDIX G - DOCUMENT SUBMITTED FOR THE RECORD BY 
RANKING MINORITY MEMBER LYNN WOOLSEY: LETTER WRITTEN BY 
WINDY HILL,  ASSOCIATE COMMISSIONER, HEAD START BUREAU, 
ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT 
OF HEALTH AND HUMAN SERVICES

<GRAPHICS NOT AVAILABLE>

APPENDIX H - DOCUMENT SUBMITTED FOR THE RECORD BY 
RANKING MINORITY MEMBER LYNN WOOLSEY: RESPONSE WRITTEN 
BY SARAH GREENE, EXECUTIVE DIRECTOR, NATIONAL HEAD START 
ASSOCIATION; TO A LETTER WRITTEN BY WINDY HILL,  ASSOCIATE 
COMMISSIONER, HEAD START BUREAU, ADMINISTRATION FOR 
CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH AND 
HUMAN SERVICE 

<GRAPHICS NOT AVAILABLE>

APPENDIX I - DOCUMENT SUBMITTED FOR THE RECORD BY 
CHAIRMAN MICHAEL N. CASTLE, SUBCOMMITTEE ON EDUCATION 
REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES: LETTER WRITTEN BY COUNCIL OF 
CHIEF STATE SCHOOL OFFICERS

<GRAPHICS NOT AVAILABLE>

APPENDIX J - DOCUMENT SUBMITTED FOR THE RECORD BY 
CHAIRMAN MICHAEL N. CASTLE, SUBCOMMITTEE ON EDUCATION 
REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES: STATEMENT OF THE BUSINESS 
ROUNDTABLE ON THE "SCHOOL READINESS ACT OF 2003" 

<GRAPHICS NOT AVAILABLE>

APPENDIX K - STATEMENT SUBMITTED FOR THE RECORD BY THE 
HONORABLE TIM MURPHY

<GRAPHICS NOT AVAILABLE>

                           TABLE OF INDEXES


Chairman Castle, 2, 5, 7, 9, 11, 12, 21, 23, 25, 26, 28, 29, 31, 33, 35, 36, 37, 38, 39, 40
Mr. Davis Of Illinois, 26, 27
Mr. Grijalva, 23, 24
Mr. Isakson, 6
Mr. Lawrence, 9, 15, 17, 18, 19, 21, 23, 24, 25, 26, 27, 28, 32, 36, 38, 39
Mr. Murphy, 31, 33
Mr. Osborne, 14, 15, 16, 17, 19
Mr. Payne, 30, 31
Mr. Van Hollen, 25, 26
Mrs. Biggert, 21, 22, 23
Mrs. Davis Of California, 28, 29
Mrs. Musgrave, 17, 18
Ms. Haley, 18, 20, 24, 27, 33, 37
Ms. Lemke, 4, 12, 15, 16, 21, 22, 24, 27, 29, 30, 35, 36, 38
Ms. Majette, 19, 20, 21
Ms. Wilkins, 7, 14, 15, 16, 17, 19, 20, 22, 23, 27, 29, 30, 32, 37, 38, 39
Ms. Woolsey, 4, 5, 7, 15, 16, 17, 39, 40


</pre></body></html>
